<html>
<title> - THE IMPACTS OF ENVIRONMENTAL REGULATIONS ON ENERGY AND MINERAL DEVELOPMENT: THE WILDLANDS PROJECT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
    THE IMPACTS OF ENVIRONMENTAL REGULATIONS ON ENERGY AND MINERAL 
                  DEVELOPMENT: THE WILDLANDS PROJECT

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, June 16, 2005

                               __________

                           Serial No. 109-20

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov




                 U.S. GOVERNMENT PRINTING OFFICE

21-883                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                     JIM GIBBONS, Nevada, Chairman
           RAUL M. GRIJALVA, Arizona, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
Barbara Cubin, Wyoming                   Samoa
Chris Cannon, Utah                   Solomon P. Ortiz, Texas
John E. Peterson, Pennsylvania       Jim Costa, California
Stevan Pearce, New Mexico            Charlie Melancon, Louisiana
Thelma Drake, Virginia               Dan Boren, Oklahoma
Bobby Jindal, Louisiana              Edward J. Markey, Massachusetts
Louie Gohmert, Texas                 Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 16, 2005..........................     1

Statement of Members:
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     1
        Prepared statement of....................................     3
        Articles submitted for the record........................    43
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     6
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia, Statement submitted for the 
      record.....................................................    46

Statement of Witnesses:
    Boorse, Dorothy, Ph.D., Associate Professor, Biology 
      Department, Gordon College, Representing Noah Alliance.....    22
        Prepared statement of....................................    23
    Conner, Teresa A., Manager, Environmental Resources 
      Department, Queenstake Resources USA, Inc., Representing 
      Women's Mining Coalition...................................    11
        Prepared statement of....................................    13
    Mathis, Mark E., Executive Director, Citizens' Alliance for 
      Responsible Energy.........................................    15
        Prepared statement of....................................    17
    McDonnell, Thomas G., President, McDonnell Angus Ranch, 
      McDonnell & Associates, Representing the New Mexico 
      Stockgrowers Association...................................     7
        Prepared statement of....................................     9

Additional materials supplied:
    Vacariu, Kim, Southwest Director, Wildlands Project, 
      Statement submitted for the record by Hon. Raul Grijalva...    46


   OVERSIGHT HEARING ON THE ``IMPACTS OF ENVIRONMENTAL REGULATIONS ON 
        ENERGY AND MINERAL DEVELOPMENT: THE WILDLANDS PROJECT.''

                              ----------                              


                        Thursday, June 16, 2005

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room 1334, Longworth House Office Building, Hon. Jim Gibbons 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gibbons, Pearce, Drake, Gohmert, 
Grijalva, and Melancon.

STATEMENT OF THE HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. The Subcommittee on Energy and Mineral 
Resources will come to order.
    The Subcommittee today is here to hear testimony on how 
environmental laws and regulations are currently being used to 
limit domestic energy and mineral production.
    Obstructionists present Americans with a false choice of 
supporting either energy and mineral development or 
environmental protection. Responsible energy and mineral 
development and environmental protection can and do work hand 
in hand to deliver to American consumers the most basic 
resources necessary to feed their families, keep their homes 
cool in the summer and warm in the winter, and have access to 
the best health care in the world.
    Unfortunately, we have allowed our domestic energy and 
minerals policy to languish over the years, driving investment 
overseas and increasing our reliance on foreign sources of 
energy and mineral resources. The United States Geological 
Survey tracked 62 non-fuel minerals that are used on a daily 
basis by Americans. Last year, we imported 100 percent of 17 
minerals on that list and more than 80 percent of another dozen 
or so. We are now importing about 63 percent of the oil that we 
need to run our economy. Crude oil has been trading between $55 
and $57 a barrel over the past week, and the American consumer 
continues to pay well over $2 a gallon for gasoline.
    The increased prices Americans are paying for gasoline and 
other goods and services are directly related to the increased 
competition for those same resources from China, India, and 
other developing nations. These are resources that are 
necessary to satisfy the basic requirements of an individual's 
well-being: food, clothing, shelter, and a clean and healthy 
environment.
    It is apparent to me that domestic energy and mineral 
production are crucial activities for creating jobs and 
maintaining and enhancing our Nation's economic and national 
security. It would also seem to me that with higher prices for 
energy and mineral commodities, we would see a higher level of 
investment in exploration and development for energy and 
minerals and more activity on the ground. However, while there 
has been some increase in expenditures and activity, it is not 
commensurate with the growth and growing demand for these 
resources. In fact, only 8 percent of mining's exploration 
dollars are spent here in the United States, and that means 
that 92 percent are being spent elsewhere. That also means that 
high-paying jobs that could be in Nevada and other States and 
elsewhere in our country are going overseas.
    In the early 1990s, about 20 percent of mining's 
exploration dollars were spent domestically. As a policymaker, 
I have to ask why is it that companies find Canada, South 
America, and even Africa more desirable places to spend 
exploration dollars than the United States. Is it because there 
are no minerals or energy resources in the United States? I 
don't think so.
    In my prior life as an exploration geologist, I spent many 
days roaming remote places in Nevada, and I can say for certain 
that Nevada is abundant in minerals, just like much of the 
United States. The hard truth is, ladies and gentlemen, that 
the United States is viewed as a poor choice to invest money or 
to put money at risk by those investors that supply capital to 
our domestic resources industry, primarily because of the long 
lead time required to bring projects into production compared 
to these other countries.
    Today we will hear testimony that details how environmental 
laws and regulations that are intended to address real 
environmental problems are being used to limit domestic energy 
and mineral production. These laws were designed to regulate 
human activity in order to mitigate adverse impacts of people, 
communities, and the outdoor environment, including plant and 
animal species.
    These were laws designed to ensure that important 
industrial activities such as mineral and energy projects were 
well thought out, engineered properly, and would be conducted 
in an environmentally responsible manner. These laws are also 
often used to delay permitting, to challenge records of 
decision on projects, and to waste capital on litigious 
processes, all of which succeed in changing and increasing the 
cost of a project and thus scaring off potential investors for 
domestic resource projects.
    We will also hear today about the Wildlands Project, an 
environmental plan designed to ``re-wild'' the North American 
continent into a network of wilderness preserves linked 
together with corridors. While we all want to protect our 
sensitive lands and species, I am deeply concerned by the 
corruption of our environmental laws in order to implement 
grand schemes such as this. It is my opinion that a great deal 
of our land is already locked up by the Federal Government, 
often to the detriment of our own Nation and the people who 
live here.
    We can protect wildlife and habitats while still allowing 
for environmentally responsible energy and mineral projects 
that will ensure our economy can continue to prosper.
    I look forward to hearing from our witnesses today and the 
testimony they will give. Now I would like to turn it over to 
my good friend, the Ranking Minority Member on the 
Subcommittee, Mr. Grijalva, for any opening remarks he might 
make. Mr. Grijalva?
    [The prepared statement of Mr. Gibbons follows:]

           Statement of The Honorable Jim Gibbons, Chairman, 
              Subcommittee on Energy and Mineral Resources

    The Subcommittee meets today to hear testimony on how environmental 
laws and regulations are currently being used to limit domestic energy 
and minerals production.
    Obstructionists present Americans with a false choice of supporting 
either energy and mineral development or environmental protection.
    Responsible energy and mineral development and environmental 
protection can--and do--work hand in hand to deliver to the American 
consumer the most basic of resources necessary to feed their families, 
keep their homes cool in the summer and warm in the winter, and have 
access to the best healthcare in the world.
    Unfortunately we have allowed our domestic energy and minerals 
policies to languish over the years, driving investment overseas and 
increasing our reliance on foreign sources of energy and mineral 
resources.
    The United States Geological Survey tracks 62 non-fuel minerals 
that are used on a daily basis by Americans.
    Last Year we imported 100% of seventeen minerals on that list and 
are more than 80% dependent on another dozen.
    And we now import about 63 percent of the oil that we need to run 
the economy.
    Crude oil has been trading between $55 and $57 a barrel over the 
past week and the American Consumer continues to pay well over $2 a 
gallon for gasoline.
    The increased prices Americans are paying for gasoline and other 
goods and services are directly related to the increased competition 
for those same resources from China, India and other developing 
nations.
    These are resources that are necessary to satisfy the basic 
requirements of an individual's well-being: food, clothing, shelter, 
and a clean, healthy environment.
    It's apparent to me that domestic energy and mineral production are 
crucial activities for creating jobs, and maintaining and enhancing our 
Nation's economic and national security.
    It would also seem to me, that with higher prices for energy and 
mineral commodities, we would see a higher level of investment in 
exploration and development for energy and minerals and more activity 
on the ground.
    However, while there has been some increase in expenditures and 
activity, it is not commensurate with the growing demand for these 
resources.
    In fact, only 8 percent of mining's exploration dollars are spent 
here in the United States--that means 92 percent is being spent 
elsewhere.
    That means high-paying jobs that could be in Nevada and elsewhere 
in the United States are going overseas.
    In the early 1990s, about 20 percent of mining's exploration 
dollars was spent domestically.
    As a policymaker, I have to ask--why is it that companies find 
Canada, South America, and even Africa more desirable places to spend 
exploration dollars than here in the United States?
    Is it because there are no minerals or energy resources in the 
United States? I don't think so.
    In my prior life as an exploration geologist, I spent many days 
roaming remote places of Nevada, and I can say for certain that Nevada 
is abundant in minerals... just like much of the United States.
    The hard truth is that the United States is viewed as a poor choice 
to put money at risk by the investors that supply capital to our 
domestic resource industries, primarily because of the long lead times 
required to bring projects into production compared to other countries.
    Today we will hear testimony that details how environmental laws 
and regulations that were intended to address real environmental 
problems are being used to limit domestic energy and mineral 
production.
    These laws were designed to regulate human activity in order to 
mitigate for adverse impacts to people, communities and the outdoor 
environment, including plant and animal species.
    These were laws designed to ensure that important industrial 
activity such as minerals and energy projects were well thought out, 
engineered properly and would be conducted in an environmentally 
responsible manner.
    These laws are also often used to delay permitting, to challenge 
``Records of Decisions'' on projects, and to waste capital on a 
litigious process--all of which succeed in changing and increasing the 
cost of a project and thus, scaring off potential investors for 
domestic resource projects.
    We will also hear today about the ``Wildlands Project''.
    This audacious environmental plan is designed to ``re-wild'' the 
North American Continent into a network of wilderness preserves linked 
together with corridors.
    While we all want to protect our sensitive lands, I am deeply 
concerned by the corruption of our environmental laws in order to 
implement this grand scheme.
    It is my opinion that a great deal of our land is already locked-up 
by the federal government--often to the detriment of our nation.
    We can protect wildlife and habitats while still allowing for 
environmentally responsible energy and mineral projects that will 
ensure our economy can continue to prosper.
    I thank the witnesses for joining us today and look forward to your 
testimony.
                                 ______
                                 

   STATEMENT OF THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to make some opening remarks and 
also to welcome the witnesses that we have before us today.
    The stated purpose of today's hearing is to review the 
impacts of environmental regulations on energy and mineral 
development, and specifically how the Wildlands Project factors 
into this concern. For those of you that may not have heard of 
it before, the Wildlands Project is a group of scientists, 
conservationists, and others supporting the prevention of 
species extinction and ecosystem degradation.
    Started in 1991, the organization uses science to map a 
network of connected wildlands to provide habitat for species 
on private and public lands in North America. The Wildlands 
Project supports biodiversity and healthy ecosystems and 
believes it should be protected and restored.
    Although the Wildlands Project encourages policies and 
private actions that support this goal, the organization does 
not lobby Congress and has been involved in only one Endangered 
Species Act-related lawsuit. It is, therefore, difficult to 
understand why this organization is considered to be such a 
bogeyman by some.
    Some of the testimony submitted by the witnesses today 
appears to incorrectly assume the Wildlands Project is 
orchestrating what other groups of citizens are doing around 
the country on conservation issues. While the Wildlands 
Project's main theory supports some of the work of other 
groups, I believe it is inaccurate to view this group as the 
grand architect of all the conservation efforts outlined in the 
testimony.
    With regard to environmental laws, it is important to 
remember that Congress enacted environmental laws such as the 
Endangered Species Act in order to mitigate the adverse effects 
of activities such as energy and mineral development.
    Regulations by Federal agencies are developed and 
implemented based on the goals of the legislation enacted by 
Congress. I am very skeptical about the ostensible reason for 
holding this hearing. Quite frankly, that is that the Wildlands 
Project is somehow hampering energy development on public 
lands.
    The truth is, judging by statistics and recent press 
reports, environmental regulations and environmental 
organizations are having no discernible effect on domestic 
energy and mineral production. For instance, nearly 90 percent 
of Federal oil and gas resources are open to oil and gas 
activity. Oil and gas activity have been surging upwards on 
Western Federal lands to such a degree that there are growing 
tensions and concerns being voiced by ranchers and other land 
owners afraid of the long-term impacts such activity will have 
on their water supplies.
    In addition, the vast majority of Federal lands are open to 
hard rock mining and coal production. Last year, we saw an 
increase of nearly 4 percent over 2003. In other words, 
domestic production of energy and mineral resources is and 
remains robust. Energy and mineral extraction activities, if 
not managed properly, can have a devastating effect on the 
environment. This is not a value statement. This is a fact.
    The cost of reclaiming Federal lands from historic hard 
rock mining has been estimated to cost between $32 and $72 
billion. There is an estimated 16,000 miles of Western streams 
contaminated by mining waste. So it is reasonable for citizens, 
communities, and organizations such as the Wildlands Project to 
look at proposed energy and mining projects with skepticism. 
Despite that, I know of no place in the country where the 
Wildlands Project is hampering mineral production.
    In closing, I would note for the record that it is a sad 
day when this committee provides a forum for one group of 
citizens to accuse and malign another group but does not invite 
the accused to testify and answer such charges. Even though the 
Wildlands Project is specifically named in the subject of this 
hearing, they were not invited to testify until last week when 
the minority learned that there was no intention to include 
them in today's panel. At that point we were able to secure an 
invitation for them, but given the tardiness of the request, 
the Wildlands Project was unable to be here today.
    Nonetheless, I have a written statement from them to be 
submitted at the appropriate time for the record and also a 
written statement from the Ranking Member of the Committee, Mr. 
Rahall, and I would hope that in the future we will see a more 
balanced use of the Committee's resources and time. My dad 
always used to say, if you are going to have a fight, you have 
to have everybody there. And I don't know--this is not 
necessarily a fight, but the fact is if we are going to single 
in on one group as the consequence and source of the problem we 
are talking about today, I think it is not only fair but 
appropriate that that organization be represented and that 
questions from this Committee be directed to them as well.
    With that, Mr. Chairman, and with two items to submit to 
the record, thank you very much.
    [The prepared statement of Mr. Grijalva follows:]

    Statement of The Honorable Raul M. Grijalva, Ranking Democrat, 
              Subcommittee on Energy and Mineral Resources

    The stated purpose of today's hearing is to review the impacts of 
environmental regulations on energy and mineral development, and 
specifically how the Wildlands Project factors into this concern.
    For those who may not have heard of it before, the Wildlands 
Project is a group of scientists, conservationists and others 
supporting the prevention of species extinctions and ecosystem 
degradation. Started in 1991, the organization uses science to map a 
network of connected wildlands to provide habitat for species on 
private and public lands in North America.
    The organization also recommends science-based management 
prescriptions for specific areas. According to the Wildlands Project's 
website, ``Private land owners within proposed conservation planning 
areas are not bound in any way by our recommendations, but are 
encouraged to participate in voluntary actions to protect landscape 
linkages and native species.''
    The Wildlands Project supports biodiversity and healthy ecosystems, 
and believes they should be protected and restored. Although the 
Wildlands Project encourages policies and private actions that support 
this goal, the organization does not lobby Congress and has been 
involved in only one Endangered Species Act-related lawsuit. It is, 
therefore, difficult to understand why this organization is considered 
to be such a ``bogeyman'' by some.
    Some of the testimony submitted by the witnesses today appears to 
incorrectly assume that the Wildlands Project is somehow orchestrating 
what other groups or citizens are doing around the country on 
conservation issues. While the Wildlands Project may in theory support 
some of these efforts, it is inaccurate to view this group as a grand 
architect of all the conservation efforts outlined in the testimony.
    With regard to environmental laws, it is important to remember that 
Congress enacted environmental laws, such as the Endangered Species 
Act, in order to mitigate the adverse effects of activities such as 
energy and mineral development. Regulations by federal agencies are 
developed and implemented pursuant to the goals of the legislation 
enacted by Congress.
    I am very skeptical about the ostensible reason for holding this 
hearing, that is, that the Wildlands Project is somehow hampering 
energy development on public lands. The truth is, judging by statistics 
and recent press reports, environmental regulation and environmental 
organizations are having no discernible effect on domestic energy and 
mineral production. For instance, nearly 90 percent of federal oil and 
gas resources are open to oil and gas activity. Oil and gas activity 
has been surging upwards on western federal lands, to such a degree 
that there are growing tensions and concerns being voiced by ranchers 
and other landowners afraid of the long-term impacts such activity will 
have on their water supplies.
    In addition, the vast majority of federal lands are open to hard 
rock mining and coal production in the United States increased in 2004 
by 39.7 million short tons, which is a nearly 4 percent increase over 
2003, according to the Energy Information Administration.
    In other words, domestic production of energy and mineral resources 
remains robust.
    Energy and mineral extraction activities can, if not managed 
properly, have devastating effects on the environment. This is not a 
values statement--it is a fact. The cost of reclaiming federal lands 
from historic hardrock mining has been estimated to cost between $32 
and 72 billion dollars. There are an estimated 16,000 miles of western 
streams contaminated by mining wastes. So, it is reasonable for 
citizens, communities and organizations such as the Wildlands Project, 
to look at proposed energy and mining projects with skepticism. Despite 
that, I know of no place in the country where the Wildlands Project is 
hampering mineral production.
    In closing, I would note for the record that it is a sad day when 
this Committee provides a forum for one group of citizens to accuse and 
malign another group, but does not invite the accused to testify and 
answer said charges. Even though the Wildlands Project is specifically 
named in the subject of this hearing, they were not invited to testify 
until last week when the Minority learned that there was no intention 
to include them in today's panel. At that point, we were able to secure 
an invitation for them, but, given the tardiness of the request, the 
Wildlands Project was unable to be here today. Nonetheless, I have a 
written statement from them to be submitted at the appropriate time. I 
would hope that in the future, we will see a more fair and balanced use 
of the Committee's resources.
                                 ______
                                 
    Mr. Gibbons. Thank you very much.
    We will turn now to our first panel. If all of you will 
rise, we have a procedure here that we swear in our witnesses 
before any testimony, and we have to give you an oath as a 
requirement here. Would you please raise your right hand?
    [Witnesses sworn.]
    Mr. Gibbons. Let the record reflect that each of the 
witnesses stated an affirmative response to that request.
    The first panel today is going to consist of Mr. Thomas G. 
McDonnell, President, McDonnell Angus Ranch, McDonnell & 
Associates, representing the New Mexico Cattle Growers 
Association; Teresa A. Conner, Manager, Environmental Resources 
Department, Queenstake Resources USA, Incorporated, 
representing Women's Mining Coalition; Mark Mathis, Executive 
Director, Citizens' Alliance for Responsible Energy; Dorothy 
Boorse, Ph.D., Associate Professor, Biology Department, Gordon 
College, representing Noah Alliance.
    We will begin with Mr. McDonnell. Welcome. The floor is 
yours. If we could have each of you limit your comments to 5 
minutes, your full and written remarks will be entered into the 
record without objection.
    Mr. McDonnell?

 STATEMENT OF THOMAS G. McDONNELL, PRESIDENT, McDONNELL ANGUS 
  RANCH, McDONNELL & ASSOCIATES, REPRESENTING THE NEW MEXICO 
                   CATTLE GROWERS ASSOCIATION

    Mr. McDonnell. Thank you, Mr. Chairman. A lot of the 
examples I am going to be talking about deal with the livestock 
industry; however, they have a lot of relevance to the mineral 
and energy industry. I did spend 10 years in mineral and 
mining, so I am quite familiar with the industry.
    I first became involved in the Wildlands Project in 1994, 
and I began reviewing the documents put out by Dave Foreman and 
Michael Soule and Reed Noss. And I came to the simple 
conclusion that an avalanche of petitions to list new species, 
a number of appeals, a large number of the cases litigating the 
stoppage of mineral development, mining, grazing, and 
recreation, that these activities were not isolated events, but 
they were a well-coordinated effort to establish a reserve 
system.
    In the Wildlands Project, Dave Foreman, he sits there and 
he makes the statement that the national parks and the 
wilderness areas that we have are currently nothing more than 
outdoor zoos. And he had a vision in there of interconnecting 
all the wildernesses we see over here and removing in use the 
intervention of industrial humans, off limits to human 
exploitation free of artifacts of civilization. And he 
envisioned putting this in place to eventually cover half the 
North American continent.
    How he proposed to do this was establish a series of core 
reserve, core protected, core wilderness areas, connecting them 
with migratory corridors, and then surrounding them with buffer 
zones.
    In 1994, there were 35 groups listed as being involved in 
the project. At that time they were mapping and beginning their 
efforts to litigate and legislate all these areas toward 
wilderness. In the West, they looked at areas when they were 
mapping that were 100,000 acres or larger; in the East, 50,000 
acres or larger. And they identified those, and then they began 
efforts to begin expanding them and interconnecting them. 
Private property in these areas was then also mapped and 
targeted for acquisition either by Government or by land trust 
groups.
    Today, like I said--in 1994, there were 35 groups. The 
California Wilderness Coalition on their website today list 180 
groups involved in their effort to re-wild the Sierra Nevada 
Mountains of Nevada and California.
    We have seen them use a variety of different methods. By 
1995, 11 of the 34 known groups were involved in litigation. A 
couple examples of those are the Hells Canyon Preservation 
Council, while I was working as Director of Natural Resources 
for the American Sheep Industry, litigated the removal of sheep 
grazing from the Hells Canyon National Recreation Area in 
Washington and Idaho. The Oregon Natural Resource Council began 
litigating the removal of cattle grazing from areas of 
Washington and Oregon, saying all these uses were incompatible 
with the designations. We have also seen them use a variety of 
acts, NEPA, asking them, say, to remove all grazing until NEPA 
analysis could be completed.
    This file here is over 100 different suits filed on grazing 
by these groups to remove us from Federal, State, and sometimes 
from private properties.
    We have also seen these groups abuse probably one Act in 
particular, and that is the Endangered Species Act. And in my 
personal experience, I have seen them use it in four different 
ways: number one, the citizen suit provisions; number two, the 
listing provisions; number three, the critical habitat 
provisions; and, finally, the delisting provisions themselves. 
And I would like briefly just to go into a few of those.
    We have seen them try to list everything from the simple 
rattlesnake to the Alaskan wolf. I see today they are trying to 
list the polar bear probably to stop the ANWR. They have thrown 
frivolous listings out there, anything that they can do to stop 
development.
    The critical habitat designations, every petition to list, 
every suit to get the species listed, they sat there and asked 
for the maximum amount of critical habitat. And what they have 
done is they have basically pulled the Secretary's authority to 
designate habitat away from them and placed it into the courts.
    Third, what they have done is they have sat there and 
affected the delisting process. We sat there and had a decision 
come out of the liberal Oregon courts that we cannot delist the 
wolf until it has fully recovered throughout its habitat in 
historic numbers. Basically what this means is we will never 
get the wolf delisted, and it has implications not just on the 
wolf but all species. And what has happened with these groups 
is they have distorted the intent of the Endangered Species Act 
far beyond what Congress intended it to do. They have sat there 
and they have removed administration of the Act from the U.S. 
Fish and Wildlife, and the Act is totally dependent on the 
courts.
    And with that, I would like to go ahead and conclude that.
    [The prepared statement of Mr. McDonnell follows:]

     Statement of Tom McDonnell, President, McDonnell Angus Ranch, 
                         McDonnell & Associates

    Thank you for this opportunity to testify before this subcommittee 
on the Wildlands Project. My name is Tom McDonnell, owner of McDonnell 
Angus Ranch and President of McDonnell and Associates, a private 
consulting firm specializing in natural resource issues. Today I am 
speaking on behalf of the New Mexico Stockgrowers Association, however, 
some of the experiences I pass on to you are from the sixteen years I 
served as Director and Associate Director of Natural Resources and 
Policy for the American Sheep Industry Association.
    When Dave Foreman moved from environmental terrorism, or monkey 
wrenching as he referred to it, to paper wrenching: the tying up of 
economic activity with litigation and appeals, I natural followed his 
progression. Dave Foreman's Earth First! organization had taken credit 
for the arson destruction on one of the sheep industry's larger auction 
barns in 1989, the destruction of the California Woolgrower Office, and 
numerous acts of sabotage on ranches across the West. I learned to take 
his statements seriously.
    In 1994, I was one of the first in industry to review a document 
drafted by Dave Foreman with the assistance of Reed Noss and Michael 
Soule. In a technical review of the Wildlands Project, I concluded that 
the avalanche of petitions to list new species, the appeals and 
litigation to stop mineral development, mining, grazing, and 
recreational activities were not isolated instances but rather well 
coordinated activities aimed according to the Projects text at 
establishing a ``regional reserve system which will ultimately tie the 
North American continent into a single Biodiversity Reserve.''
    Dave Foreman referred to National Parks and current wilderness 
areas as nothing more than ``outdoor zoos.'' He envisioned vast areas 
of interconnected wilderness free from industrial human intervention, 
off-limits to human exploitation, and free of the artifacts of 
civilizations including roads, dams, power lines and overflights. In 
the Wildlands Project, Dave Forman called on no less than half of the 
North American continent being returned to Wilderness.
    Over the next 100 years, Foreman called on the establishment of 
systems of core wilderness areas where human activity is prohibited. 
These core protected areas were to be linked with biological corridors 
and surrounding these core protected areas and corridors, buffer zones 
were to be established and managed to restore ecological health. 
Civilization was to be limited to islands of human activity outside 
these buffer zones.
    In 1994, thirty-five activist groups were know to be mapping, 
litigating and legislating their way towards Dave Foreman's vision of a 
single Biodiversity Reserve. Areas with state and national parks, BLM 
and U.S. Forest Services lands, and National Wildlife Refuge over 
100,000 acres in the West or 50,000 acres in the East were identified 
and work begun to move these areas into wilderness or similar 
designations. In the West alone, 38 areas were identified where road 
closures would create roadless areas of one- million or more acres. Any 
private property providing gaps between roadless areas was to be 
targeted for acquisition by government or land trust organization, and 
any attempt to utilize resources within areas identified for roadless 
designation were to be litigated.
    Since 1994, the number of activist groups supporting the Wildlands 
Project have grown. The California Wilderness Coalition website, for 
example, lists 180 different groups as supporting their effort to 
``rewild'' the Sierra Nevada Mountains. These groups have used a 
variety of methods to remove the ``artifacts'' of civilization. 
Hundreds if not thousands of lawsuits have been filed to remove and 
prohibit use of these ``identified roadless areas,'' and to enlarge 
their expanses. By 1995, 11 of the 34 known Wildland Project groups had 
litigation filed against the Departments of Ag and Interior and the 
EPA. The Hells Canyon Preservation Council successfully litigated sheep 
grazing as being an incompatible use within the Hells Canyon National 
Recreation Area and is now seeking to remove motorized boating. The 
Oregon Natural Resource Council is currently litigating cattle grazing 
as being incompatible with scenic rivers and monument designations. 
These activists have attempted repeatedly to have grazing removed under 
federal agencies failure to conduct NEPA. But the one piece of 
environmental legislation most abused by these groups is the Endangered 
Species Act.
    A study of the Wildlands Projects is one of abuse of the Endangered 
Species Act itself. Wildlands Project groups have abused the Act in 
four major ways. First is the citizen suit provision of the Act itself, 
not only filing suits with the intent of halting all economic activity, 
but also filing suits to halt protection and recovery of the species 
itself. Second, Wildlands Project groups have abused the Section 4 
listing process by repeated petitioning for the listing of any species 
that may halt economic development. Third is the designation of 
critical habitat. With nearly every petition to list, comes a request 
for the designation of the maximum amount of critical habitat possible. 
If the Secretary deems the benefits of not designating critical habitat 
outweigh the benefits of designation unnecessary, this is litigated. If 
critical habitat is designated, then the litigation of all economic 
uses with that habitat is initiated. Finally, once a species is 
recovered, removing the species from the list is made almost impossible 
by litigation. The fact is, the citizen suit provision of the Act has 
effectively removed control over the Endangered Species Act from 
Congress and the administering agencies, and handed that control to the 
courts. Citizen suits by U.S. Fish & Wildlife Service's own admission 
have bankrupted not only the administration of the program, but they 
have bankrupted Congress' intent of the Act and have served to bankrupt 
entire segments of the U.S. economy.
    By 1995, Wildlands Project groups had petitioned for the listing of 
literally hundreds of species. To give Congress some examples of abuse, 
the Biodiversity Legal Foundation has petitioned to list the common 
timber rattlesnake with critical habitat in 31 states, millions of 
acres of white pine, and the Alaskan wolf. In each of these cases, U.S. 
Fish & Wildlife Service found the petitions either unwarranted or 
unsubstantiated with scientific fact. But not until limited personal 
and financial resources were expended addressing the petitions, often 
times in court. Two species which wildlands project groups were 
successful in listing, were the Prebles jumping mouse and the Sierra 
Nevada bighorn. DNA analysis has recently determined that the Prebles 
mouse is not a unique species, or subspecies, but not before critical 
habitat designations and recovery plans cost the Colorado economy alone 
an estimated $4 billion.
    It took industry two years to obtain a DNA sample from the U.S. 
Fish & Wildlife Service for the Sierra Bighorn after the Wildland 
Project group Friends of the Inyo successfully petitioned the listing 
of this bighorn. Nuclear DNA analysis now suggests that the Sierra 
Bighorn is neither distinct nor a subspecies. Yet the bighorn are being 
transplanted into regions of historic livestock grazing, and used to 
remove grazing use. At this time, 60,000 domestic sheep have been 
removed from domestic grazing allotments and another 60,000 head are 
targeted for removal. Economic impacts on the sheep industry could run 
as high as $100 million for a subspecies or distinct population of a 
species that isn't.
    Delisting has also been problematic. The grizzly bear in the 
Northern Continental population met all recovery criteria in 1982. Once 
delisting looked probable in 1991, the Biodiversity Legal Foundation 
petitioned to list other populations from threatened to endangered and 
U.S. Fish & Wildlife Service was lobbied to rewrite its recovery plan. 
In the 1993 Grizzly Bear Recovery Plan, USF&WS implemented the 
principles of the Wildlands Project outlining the establishment of at 
least six populations in protected recovery zones in Montana, Wyoming, 
Idaho, Washington and possibly Colorado, and the connection of these 
island populations of grizzly with migratory corridors, one of which is 
240 miles long. Despite the fact that hunting, recreation and poaching 
are responsible for over half of all grizzly bear mortalities, and 
sheep grazing, which accounts for less than 9 percent of mortality, is 
cited as the biggest source of grizzly conflict and is targeted for 
removal from core grizzly habitat. Wildlands Project groups have also 
successfully litigation the halt of most mineral and energy development 
on the front-range of Montana and Northern Wyoming within grizzly 
habitat.
    Not only has it been impossible to delist the grizzly bear, but a 
recent Oregon court decision has made it impossible to delist the wolf 
and possibly any other species. Efforts to delist the gray wolf were 
met with legal challenge by Wildland Project groups in the liberal 
Oregon courts. After a January ruling that the wolf could not be 
delisted until it was recovered throughout its habitat in historic 
numbers, its may be impossible to delist the wolf until populations in 
New England, the Appalachians and the Southwest are recovered. 
Furthermore this case makes it questionable whether any species can now 
be recovered or delisted.
    The Endangered Species Act states that the Secretary shall consider 
the designation of critical habitat using best scientific data and 
evaluates the economic impact of such designation, and other relevant 
impacts. The Secretary may then exclude any area from critical habitat 
if the benefits of such exclusion outweigh the benefits of the habitat. 
The Oregon wolf case demonstrates effectively how Wildlands Project 
groups have pull this authority well away from the Secretary. With each 
petition, Wildlands Project groups are requesting and litigating the 
designation of the maximum amount of habitat possible, not for 
conservation of the species, but to enable their control of resource 
use. Congress must take measures to strengthen the Endangered Species 
Act so it can achieve its intended purpose. The listing and delisting 
mechanisms of the Act must be addressed so only species in need of 
protection are listed, and once recovery is achieved, these species 
delisted. The citizen suit provisions of the Act must be reviewed to 
address the avalanche of frivolous litigation that only serves to halt 
economic use, and does nothing to conserve the species. Critical 
habitat and recovery plans must be addressed. All conservation efforts 
are better served through incentives and landowner cooperation, rather 
than threat of litigation and the iron hand of the courts, rules and 
regulations.
    Thank you once again for this opportunity to testify on behalf of 
the New Mexico Stockgrowers Association.
                                 ______
                                 
    Mr. Gibbons. Thank you very much, Mr. McDonnell.
    We will turn now to Ms. Conner. Welcome. It is nice to see 
you again. The floor is yours. We look forward to your 
testimony.

STATEMENT OF TERESA A. CONNER, MANAGER, ENVIRONMENTAL RESOURCES 
   DEPARTMENT, QUEENSTAKE RESOURCES USA, INC., REPRESENTING 
                    WOMEN'S MINING COALITION

    Ms. Conner. Chairman Gibbons and distinguished Members of 
Congress, thank you for inviting me to testify before you 
today. My name is Teresa Conner, and I am here in my capacity 
as manager of environmental resources for Queenstake Resources 
USA, Incorporated. I am also representing the Women's Mining 
Coalition as their immediate past president and current----
    Mr. Gibbons. Do you want to pull your mike just a little 
closer, please, so everyone can hear? Thank you.
    Ms. Conner. Is that better? I am not used to this. I am 
sorry.
    I have a bachelor's degree in mining and geological 
engineering from the New Mexico Institute of Mining and 
Technology, and I have over 24 years of experience in the 
mining and petroleum industries primarily in Alaska, Nevada, 
and New Mexico. I have worked for the Federal Government, 
small, mid-tier, and large mining companies, and a consulting 
firm, and briefly had my own consulting business. My work has 
predominantly centered around permitting, both for exploration 
and development, and mine engineering. I am a member of several 
professional societies and organizations.
    I became aware of the Wildlands Project roughly 13 years 
ago. Because of the incredible scope of the project and its 
potential impact on future access to natural resources and 
their ultimate development, I have followed their progress 
since that time.
    Mined materials and the products created therefrom are 
necessary for everyday life. From the toothpaste we use each 
day to the homes we live in and the transportation we use, as 
well as the tools we use for both work and play, we could not 
function as a society without the basic materials that the 
mining industry supplies. This being said, this most basic of 
industries is being continually threatened on various fronts, 
not the least of which is the current and possible future 
limits to access to areas of potentially economic mineral 
deposits. The Wildlands Project epitomizes this threat to the 
mining industry.
    In my written testimony, I have noted some more specific 
information on acreages impacted by mining, but suffice to say 
that this number if substantially smaller than that proposed to 
be locked up by the Wildlands Project.
    The Wildlands Project proposes, as Mr. McDonnell said, to 
lock up huge segments of the land mass of the United States. 
Roughly 50 percent by their calculations should be preserved as 
wild areas. These areas would not only be off limits to any 
type of natural resources exploration and development, but 
basically to people as well.
    In the literature that the Wildlands Project has produced 
over the years, they describe how to create their ``core 
reserves and primary corridors.'' This, of course, requires 
looking at the distribution of ``rare species and community 
types,'' with the intent to manage these core reserve areas in 
such a way that puts ``biodiversity first.'' There are 
literally hundreds of cases of appeals, listings of threatened 
and endangered species, litigation, legislation, regulations, 
and management plans that are a direct result of numerous 
environmental organizations working in unison and toward the 
ultimate goal of the Wildlands Project.
    The basic tenet of the Wildlands Project is that wildlife 
cannot co-exist near mining operations or any other human-
created activity, and that they require immense land masses in 
order to survive. I am here today to let this Subcommittee know 
that this could not be further from the truth. There are 
countless examples of wildlife not only co-existing but 
flourishing at and near active mining operations. Let me 
provide you with one example from the perspective of a mining 
company.
    Queenstake Resources, who I work for, is a mid-tier gold 
producer. We operate four underground gold mines in the Jerritt 
Canyon area of the Independence Mountain Range in northeast 
Nevada. The majority of our operations is on U.S. Forest 
Service-managed lands.
    In the Independence Mountain Range, the northern goshawk is 
one species that has received considerable attention over the 
years. In 1997, the species was proposed for listing under the 
ESA. Studies of the northern goshawk in the Independence and 
Bull Run Mountains in the Humboldt National Forest started in 
1991 through the joint efforts of then-operator, Independence 
Mining Company, and the U.S. Forest Service. Since that time, 
there have been numerous studies conducted and data collected 
that do not support listing the northern goshawk as an 
endangered species. Had the northern goshawk been listed, there 
would have been huge impacts not only to our Jerritt Canyon 
mining operations, but across the West. Large tracts of land 
would have been locked up needlessly.
    Queenstake Resources and our predecessor companies at the 
Jerritt Canyon Mine have developed, with the Forest Service, 
management guidelines that we continue to adhere to today. The 
Master Base Plan of Operations for exploration activities, 
approved in 1994, includes several mitigation measures, but the 
one I would like to talk about today is guidelines on how we 
address the northern goshawk. These measures include temporal 
and spatial restrictions to avoid any effects to the Post 
Fledgling Area of the northern goshawk. These restrictions 
require that Queenstake not conduct disturbing activities from 
March 15th through June 1st annually. At that point, a 
determination of nest activity or inactivity is made. This 
requires that we do an annual survey to check these nesting 
areas. If there is no activity, then we can proceed with our 
exploration work. If a nest is active, however, we cannot work 
until at least 6 weeks after fledging, or into mid-August, 
which is, of course, as you know, prime exploration time during 
the summer. These restrictions, however, have become second 
nature to our exploration geologists, and it is understood that 
drilling or any related activities cannot occur until they are 
satisfied.
    In my experience, there are several examples of how mining 
operations can co-exist with wildlife. As I have just 
described, that is just one example.
    In light of the impacts of environmental regulations on 
energy and mineral development and how the Wildlands Project 
plays into that picture, I have a few recommendations for the 
Subcommittee's consideration.
    First, in revisions to the Endangered Species Act, we need 
to ensure that sound science be utilized, and we need to have 
actual, verifiable field data that backs that up.
    Second, prior to designating critical habitat for species, 
the completion or amendment of recovery plans should be 
required.
    Third, an economic impact analysis should be required when 
any restrictions are developed in conjunction with listed under 
the Endangered Species Act.
    And, finally, because of the potential impact of the 
Wildlands Project, I would strongly urge this Subcommittee to 
review all available information on this project and determine 
its true merits.
    Thank you.
    [The prepared statement of Ms. Conner follows:]

    Statement of Teresa A. Conner, Manager, Environmental Resources 
 Department, Queenstake Resources USA, Inc., Women's Mining Coalition, 
                   Past President and Current Advisor

    Chairman Gibbons and distinguished Members of Congress:
    Thank you for the invitation to testify before this Subcommittee 
today. My name is Teresa Conner. I am here today in my capacity as the 
Manager of Environmental Resources for Queenstake Resources USA, Inc.. 
I am also representing the Women's Mining Coalition, as their immediate 
past president and current advisor.
    I have a bachelor's degree in Mining and Geological Engineering 
from the New Mexico Institute of Mining and Technology. I have over 24 
years of experience in the mining and petroleum industries primarily in 
Alaska, Nevada and New Mexico. I have worked for the federal 
government, small, mid-tier and large mining companies, a consulting 
firm and briefly had my own consulting business. My work has 
predominately centered around permitting, both for exploration and 
development, and mine engineering. I am a member of several 
professional societies and organizations, including Society for Mining, 
Metallurgy, and Exploration, Inc., the Nevada Mining Association, the 
New Mexico Mining Association, the International Society of Explosives 
Engineers, the Women's Mining Coalition, and the American Association 
of Professional Landmen.
    I became aware of The Wildlands Project roughly 13 years ago. 
Because of the incredible scope of the project and its potential impact 
on future access to natural resources and their ultimate development, I 
have followed their progress since that time.
Overview:
    Mined materials and the products created therefrom are necessary 
for every day life. From the toothpaste we use each day to the homes we 
live in and the transportation we use, as well as the tools we utilize 
for both work and play--- we could not function as a society without 
the basic materials that the mining industry supplies. This being said, 
this most basic of industries is being continually threatened on 
various fronts, not the least of which is the current and possible 
future limits to access to areas of potentially economic mineral 
deposits. The Wildlands Project (TWP) epitomizes this threat to the 
mining industry.
Land Statistics:
    Currently, there are approximately 320,000 acres of land either 
under an approved mining plan of operations, or under a pending plan of 
operations, as estimated by the Bureau of Land Management and the 
Forest Service. Just the BLM alone manages approximately 262 million 
acres of public land in the west. Even if you assume the entire 320,000 
acres to be on BLM land, it amounts to only one tenth of one percent! 
In reality, mining impacts a negligible amount of public land.
    By comparison, there are over 43 million acres of land set aside by 
the BLM in their National Landscape Conservation System. This system 
includes National Conservation Areas, National Monuments, Wilderness 
Areas, Wilderness Study Areas, National Wild and Scenic Rivers and 
National Historic and Scenic Trails. This amounts to over 16 percent of 
the total BLM-managed lands.
    My point in mentioning these statistics, is that The Wildlands 
Project proposes that huge segments of the land mass of the United 
States, roughly 50 per cent by their calculations, be preserved as 
``wild'' areas. These areas would be not only off limits to any type of 
natural resources exploration and development, but to people as well. 
As I have indicated, there are already a substantial number of acres of 
publicly-managed land that is currently set aside in the form of 
National Conservation Areas, National Monuments, Wilderness Areas, 
Wilderness Study Areas, Wild and Scenic Rivers and National Historic 
and Scenic Trails, as well as several other types of protected areas.
Use of the Endangered Species Act and Other Laws as Tools:
    In the literature that The Wildlands Project has produced over the 
years, they describe how to create their ``core reserves and primary 
corridors''. This of course requires looking at the distribution of 
``rare species and community types'', with the intent to manage these 
core reserves areas in such a way that puts ``biodiversity first''. 
There are literally hundreds of cases of appeals, listings of 
threatened and endangered species, litigation, legislation, 
regulations, and management plans that are a direct result of numerous 
environmental organizations working in unison and toward the ultimate 
goal of The Wildlands Project.
    The basic tenant of The Wildlands Project is that wildlife cannot 
co-exist near mining operations, or any other type of human-created 
activity, and that they require immense land masses in order to 
survive. I am here today to let this Subcommittee know that this could 
not be further from the truth. There are countless examples of wildlife 
not only co-existing, but flourishing at and near active mining 
operations. Let me provide you with one example from the perspective of 
a mining company.
    Queenstake Resources is a mid-tier gold producer. We operate four 
underground gold mines in the Jerritt Canyon area of the Independence 
Mountain Range in northeast Nevada. The majority of our operations 
occur on U.S. Forest Service-managed lands.
    In the Independence Mountain Range, the northern goshawk is one 
species that has received considerable attention. In 1997 the species 
was proposed for listing under the ESA (62 F.R. at 50896). Studies of 
the northern goshawk in the Independence and Bull Run Mountains in the 
Humboldt National Forest started in 1991 through the joint efforts of 
then-operator, Independence Mining Company, Inc. and the United States 
Forest Service (USFS). Since that time there have been numerous studies 
conducted and data collected that do not support listing the northern 
goshawk as an endangered species. Had the northern goshawk been listed 
as a threatened and endangered species there would have been huge 
impacts not only to our Jerritt Canyon mining operations, but across 
the west. Large tracts of land would have been locked up needlessly.
    Queenstake Resources and our predecessor companies at the Jerritt 
Canyon Mine have developed, with the USFS, management guidelines that 
we continue to adhere to today. The Master Base Plan of Operations for 
exploration activities, approved in 1994, includes several mitigation 
measures, but the one I will describe today outlines how we will 
address concerns regarding the northern goshawk. These measures include 
temporal and spatial restrictions to avoid any effects to the Post 
Fledgling Area (PFA) of the northern goshawk. These restrictions 
require that Queenstake not conduct disturbing activities from March 15 
to June 1 annually. At that point, a determination of nest activity or 
inactivity is made. This requires an annual survey of nesting areas in 
order to determine activity or lack thereof. If there is no activity in 
a nest, then work can proceed. However, if a nest is active, no work 
can occur for at least 6 weeks after fledging, or approximately mid-
August. These restrictions have become second nature to our exploration 
geologists and it is understood that any drilling or other related 
activities cannot occur until they are satisfied.
Conclusion:
    In my experience, there are several examples of how mining 
operations co-exist with wildlife. The northern goshawk is only one of 
those examples and indicates that it is not only possible, but a 
commonplace occurrence. These types of success stories do not just 
happen in Nevada. At mining operations all across the United States 
successful management for wildlife values are happening everyday. For 
those of us involved in these operations, we see absolutely no need for 
the wide-sweeping and totally unwarranted proposal of The Wildlands 
Project to set aside roughly 50% of this country's landmass for the 
sole purpose of ``rewilding'' our nation.
Recommendations:
    In light of the impacts of environmental regulations on energy and 
mineral development and how The Wildlands Project plays into that 
picture I have a few recommendations for the Subcommittee's 
consideration. First, in the current effort to reform the Endangered 
Species Act, it is imperative that sound science be utilized when 
assessing the need to list a species as threatened or endangered. For 
all proposed listings actual, verifiable field data that demonstrates 
the presence of a species should be required. In conjunction with this, 
there should also be a requirement for independent scientific review. 
Second, prior to designating critical habitat for a species, the 
completion or amendment of recovery plans should be required. Third, an 
economic impact analysis should be required when any restrictions are 
developed in conjunction with a listing under the ESA. Finally, because 
of the potential impact of The Wildlands Project, I would strongly urge 
this Subcommittee to review all available information on this project 
and to determine its true merits.
                                 ______
                                 
    Mr. Gibbons. Thank you, Ms. Conner.
    We turn to Mr. Mathis, and I apologize for mispronouncing 
your name when I introduced you earlier as well.

       STATEMENT OF MARK E. MATHIS, EXECUTIVE DIRECTOR, 
           CITIZENS' ALLIANCE FOR RESPONSIBLE ENERGY

    Mr. Mathis. Mr. Chairman, that is quite all right.
    Mr. Chairman and members of the Committee, my name is Mark 
Mathis, and I am Executive Director for the Citizens' Alliance 
of Responsible Energy, and this is a nonprofit organization 
based in Albuquerque, New Mexico.
    Eric Sevareid once said, ``The chief cause of problems is 
solutions.'' Sevareid understood what many people don't know or 
never learned, and that is, bad solutions can crush an economy 
and even a Nation.
    Today we are facing a crisis, or at least that is what we 
are told. Our environment is in distress. The air is polluted. 
Our waterways are cesspools and wilderness is vanishing. 
According to the Wildlands Project we are in the sixth great 
extinction of plant and animal species, and the chief cause of 
this catastrophe is energy production and the burning of fossil 
fuels. But not to worry, anti-development activists have the 
solution. Huge tracts of land must be set aside for the re-
wilding of America. We can replace oil, coal, natural gas and 
nuclear power with renewable energy sources. All we have to do 
is invest our money, technology and willpower in order to make 
this happen.
    Only problem is the crisis is largely made up, and the so-
called solution is steering us toward a very real crisis. Our 
air and water are significantly cleaner than they were 30 years 
ago, according to the Environmental Protection Agency. The U.S. 
has a massive amount of wilderness, and according to a U.N. 
report, earth has more species diversity today than at any time 
in history.
    Renewable energy sources hold promise but also present big 
obstacles. As much as we would all like to stop burning fossil 
fuels, we will actually be using more of them in at least the 
next two decades. Over that time period, 39 percent more oil, 
40 percent more natural gas, 34 percent more coal, and we'll be 
using 50 percent more electricity over the next two decades.
    These are the facts, and yet most of the public and many in 
Government are deceived. Yes, we are facing a very serious 
problem, but it is not environmental degradation, it is 
domestic energy production.
    Mr. Chairman, as you noted, we currently import nearly 63 
percent of our oil, which makes up the greatest portion of our 
trade imbalance. That weakens our economy and threatens our 
national security. This need not happen. The improved 
technologies have made fossil fuel production much safer, 
cleaner and environmentally friendly. More than ever we need to 
be opening up public lands to energy production, but instead 
overly restrictive regulations are shutting down our ability to 
produce the energy we need for absolutely everything that we 
use. We must stop this dangerous charade, and we can begin by 
reforming the Endangered Species Act.
    In the last 30 years, 1,262 species have been listed as 
endangered with less than 1 percent actually being recovered. 
That's because the Act is not being used to recover species, it 
is merely a tool used by anti-development activists to remove 
people and industry from the land. All over the West energy 
production is being increasingly restricted. According to the 
American Petroleum Institute, half of all natural gas in the 
Rockies is currently effectively off limits. In my own State of 
New Mexico, extremists pressured the BLM to impose severe 
limits on energy development on Otero Mesa.
    The BLM issued the most restrictive resource management 
plan in its history. Only 84 producing wells are allowed on 2 
million acres, 2 million acres. Surface disturbances will be 
one-one thousandth of the total area. Some 36,000 acres were 
set aside for the endangered Aplomado Falcon, which hasn't even 
lived in New Mexico for the last half century. By the way, this 
endangered falcon can be found in large numbers throughout all 
of South America, all of Central America, all of Mexico, and 
parts of Texas.
    And so what was the environmental response to this highly 
restrictive resource management plan by the BLM? They were 
outraged, and so they filed suit against the BLM. This is just 
one case among hundreds across the West. Anti-development 
groups are fighting energy exploration in any new area where it 
is proposed. Their lawsuits have drained resources, intimidated 
Government agencies, and deceived the public. Even worse, 
activists have given Americans false hope in renewable power 
that is decades away from making a meaningful contribution to 
our overall energy supply.
    Every day companies responsibly develop energy supplies 
while protecting our air, water and soil. Yes, there are 
impacts, but these impacts are manageable, and the benefits 
from this energy production cannot even be measured.
    We can't do anything without fossil fuels. Take away even 
half of our foreign energy supply and we would very soon find 
out what a real catastrophe looks like. We've got a serious 
energy challenge in front of us. In order to meet that 
challenge we'll first need to dispose of the non-solution of 
overly burdensome restrictions on energy development.
    Mr. Chairman, thank you for holding this meeting today.
    [The prepared statement of Mr. Mathis follows:]

             Statement of Mark Mathis, Executive Director, 
               Citizens' Alliance for Responsible Energy

    My name is Mark Mathis. My address is 8419 Vina Del Sol Dr. NE, 
Albuquerque, NM 87122. I am a former television news reporter and 
anchor. I've been a media consultant for the past eleven years. Two and 
a half years ago I began consulting with the Independent Petroleum 
Association of New Mexico. It took only a short period of time for me 
to understand the great frustration endured by energy producers. They 
are under constant attack by anti-development groups posing as 
environmentalists. Much of the time the accusations and rhetoric 
dispensed by these groups is greatly distorted if not entirely false. 
Within a year's time I could see that something needed to be done. It 
was at that time that I began contemplating starting a non-profit 
organization for the purpose of educating the public about energy 
issues. I believe a better-informed public will result in government 
leaders making better decisions concerning our national energy policy. 
I have some experience in standing up for the public. In 2001, I formed 
an organization called ``The 505 Coalition'' to fight a new and 
unnecessary area code from being implemented in New Mexico. As a result 
of the efforts of the 505 Coalition rulings by the federal and state 
governments were rescinded, saving an estimated $50 million in public 
and private funds. I wish to apply that same type of activism to the 
critical task of safeguarding our nation's energy supply.
The Wildlands Project
    To date, the most comprehensive environmental coalition to appear 
on the scene is the Wildlands Project. This coalition is the most 
radical in purpose: to ``re-wild'' America, that is, to gradually 
remove people and raw material production from the rural United States 
with no definite stopping point. In their own words:
    ``The Wildlands Project calls for reserves established to protect 
wild habitat, biodiversity, ecological integrity, ecological services, 
and evolutionary processes. In other words, vast interconnected areas 
of true wilderness and wild lands. We reject the notion that wilderness 
is merely remote, scenic terrain suitable for backpacking. Rather, we 
see wilderness as the home for unfettered life, free from human 
technological and industrial intervention.''
    ``Extensive roadless areas of native vegetation in various 
successional stages must be off-limits to human exploitation.''
    ``To function properly, nature needs vast landscapes without roads, 
dams, motorized vehicles, power lines, over-flights, or other artifacts 
of civilization, where evolutionary and ecological processes can 
continue. Such wildlands are absolutely essential to protect 
biodiversity.''
    The Wildlands Project has proposed to set aside at least half of 
North America for ``the preservation of biological diversity.'' The 
resulting ``wildland reserves'' would contain:
    <bullet>  Cores, created from public lands such as national forests 
and parks, allowing for little, if any, human use
    <bullet>  Buffers, created from private land adjoining the cores to 
provide additional protection;
    <bullet>  Corridors, a mix of public and private lands usually 
following along rivers and wildlife migration routes; but would allow 
no cities, roads, homes, businesses, no aircraft over-flights, or 
natural resource extraction, i.e., an ever expanding area of America 
would be depopulated and de-developed.
    A decade ago, such proposals would not have been taken seriously. 
Even today this kind of proposal would seem highly unrealistic to a lot 
of people. However, such grand visions are not accomplished over night. 
They happen incrementally. Even though the term ``Wildlands Project'' 
is not widely known, it still presents a formidable threat to private 
property ownership, mineral and resource extraction, and national 
security. Countless anti-development organizations are pursing the 
goals of Wildlands without specifically using the term.
    In the late 1990s, the Clinton administration adopted aspects of 
The Wildlands Project philosophy pushed largely by Vice President Al 
Gore. In Mr. Clinton's term we witnessed a moratorium on road 
construction in undeveloped areas. There were proposals to breach dams 
on the Columbia River. The expansion of the Endangered Species Act 
continued unabated.
    The Wildlands Project is technically a coalition strategy project 
with a single lead organization: North American Wilderness Recovery, 
Inc. (2000 revenue: $1,451,459), originally based in Tucson, Arizona, 
but relocated in 2000 to Richmond, Vermont. The organization is an 
outgrowth of a 1981 Earth First! idea called the North American 
Wilderness Recovery Project.
    North American Wilderness Recovery has been supported by foundation 
grants since before its exemption 1992, particularly by Doug Tompkins' 
Foundation for Deep Ecology, in annual amounts ranging from $50,000 in 
1992 to $150,000 in 1996 and 1997. The Richard and Rhoda Goldman Fund 
gave $75,000 in 1996 and the Educational Foundation of America gave 
$50,000 in 1997. (Financial data provided by the Center for Defense of 
Free Enterprise)
A Public Deceived
    We have entered the great information age. Media is all around us 
in television, radio, newspapers and magazines. We've got CDs, DVDs, 
MP3s, and satellite TV. With our computers and the Internet massive 
amounts of information is just a few mouse clicks away. We can learn 
about the most obscure subject in great depth without ever leaving our 
homes. And yet, in the midst of this sea of information, many Americans 
are either ignorant or misinformed about some the most fundamentally 
important issues to their lives. This is the great irony of the 21st 
Century. We don't live in the information age. We live in the age of 
disinformation.
    I believe the most critical and misunderstood issue of our time is 
the balance between energy development and the environment. We all know 
we need energy for our daily lives' electricity for lights, appliances, 
computers and hundreds of other devises. We know we need gasoline for 
our cars, jet fuel for airplanes, diesel for big trucks and ships and 
all kinds of other fuels such as propane and butane. We depend on this 
energy for absolutely everything, and yet hardly ever think about where 
this life-sustaining power comes from.
    While Americans sit in their comfortable homes with every 
conceivable necessity and luxury, they watch the morning news. There's 
another protest about ``environmental destruction'' caused by fossil 
fuels. Then they read a newspaper story about the rapid and 
catastrophic loss of endangered species. Then it's off to work where a 
radio ad informs them that some ``pristine'' wilderness is about to be 
destroyed by oil and natural gas development. While cruising along the 
highway they see a billboard warning them of the dangers of nuclear 
power. They press on the gas, take a swig of bottled water and shake 
their heads at those awful energy companies that are ruining their 
lives.
    From every direction, Americans are being fed a litany of lies and 
distortions. As preposterous as it is, people have been trained to 
despise the energy sources that are the foundation of unprecedented 
health, longevity and prosperity. Americans have been fed so much 
disinformation for so long that they no longer trust their own 
experience. They just assume the disinformation is true and those 
assumptions are rarely if ever challenged.
    Because the public is so misinformed, a relatively small number of 
people who participate in vocal, well organized and very well funded 
activist groups are given undue influence over public policy. They 
demand unreasonable regulations and restrictions on energy development 
and they get a lot of attention from the press.
    For example, The Wildlands Project and other activist groups claim 
we are in the ``6th great extinction of species.'' However, a 1995 
United Nations report states that there have never been so many species 
as there are in the modern era.
    On The Wildlands Website Stanford University professor Paul Ehrlich 
is quoted as saying:
        Although the Wildlands Project's call for restoring keystone 
        species and connectivity was met, at first, with amusement, 
        these goals have now been embraced broadly as the only 
        realistic strategy for ending the extinction crisis.
    It's surprising that The Wildlands Project would give Ehrlich such 
a prominent place on its website. Ehrlich is not so much famous as he 
is notorious for making doomsday predictions that do not come true. In 
1981 Ehrlich predicted that we would lose 250,000 species every year. 
The widely discredited futurist claimed that half of all species would 
be gone by the year 2000 and that all species would be dead between 
2010 and 2025.
    True environmentalists, such as GreenPeace founder Patrick Moore, 
cite biological evidence that less than one percent of species may be 
lost in the next century.
    Moore left GreenPeace many years ago because he said the 
environmental movement was ``basically hijacked by political and social 
activists''. Moore was interviewed for the segment ``Environmental 
Hysteria'' by Showtime's Penn & Teller program. Moore told Penn & 
Teller that these phony environmentalists, ``came in and very cleverly 
learned how to use green rhetoric or green language to cloak agendas 
that actually had more to do with anti-corporatism, anti-globalization, 
anti-business and very little to do with science or ecology.''
    The Wildlands Project and other groups that support the same anti-
development agenda are effective in spreading disinformation through 
their skill in using the news media. They know that they can make 
outrageous claims and the chance that those claims will actually be 
challenged is very small. They know that journalists typically don't 
know enough about these complex issues to even ask the right questions, 
let alone to challenge the sensational assumptions. Reporters are not 
given enough time or resources to do more than simply repeat the 
activists' claims. Of course, some reporters are believers in the 
obstructionist movement and their bias heavily influences their 
stories. But more than anything, the press cannot resist emotional, 
sensational, fear-based claims. It's their bread and butter in the 21st 
century.
    Journalistic arrogance, of course, is another problem, and not just 
with renewables. Syndicated columnist Stanley Crouch recently informed 
readers of The New York Daily News, ``The recent congressional vote for 
Arctic drilling would not have been necessary if we had maintained 
commitment to developing nuclear power as an energy source.'' It 
apparently didn't occur to Mr. Crouch that there's no such thing as a 
nuclear-powered car, tractor-trailer or airplane.
    I have considerable knowledge in this area of media manipulation. I 
was a news reporter for nine years in four states and I've been a media 
consultant for more than 11 years. In my book, Feeding the Media Beast, 
I devote a chapter to ``The Rule of Emotion'' and another to ``The Rule 
of Repetition''. Anti-development groups are very good at using these 
powerful rules to their advantage.
The Renewable Deception
    Supporters of the Wildlands Project philosophy are big supporters 
of renewable energy sources such as wind, solar, and biomass. They 
continually urge the public and government leaders to reject fossil 
fuels and to embrace the energy sources of the 21st century. These 
kinds of politically correct statements receive broad approval because 
they sound so good. However, the fact is renewable energy sources 
running our world is nothing more than pure fantasy for at least 
several more decades and probably longer.
    Professional obstructionists and even some politicians have led 
people believe that a greater investment in wind and solar power will 
somehow make us less dependent on foreign oil. That's ridiculous. Wind 
turbines and solar panels generate electricity, which does nothing to 
replace the oil that fuels virtually all forms of transportation. Even 
the electricity generation of wind and solar power is minuscule at this 
point, contributing less than one half of one percent to our 
electricity needs.
    To the uninformed, this distinction may seem trivial. In reality 
its importance couldn't be greater. We don't have an electricity 
problem in this country (though we could use more power plants and an 
upgraded grid); we have a deadly serious liquid fuels crisis that 
threatens our economy, our national security and indeed all that we 
hold dear.
    There are other groups such as the Energy Future Coalition and The 
Governors' Ethanol Coalition made up of governors from 33 states. These 
organizations want Congress to increase a federally mandated use of 
ethanol above the 5 billion gallons required by 2012. These governors 
score points--and votes--by appearing to actually be doing something 
about our thirst for foreign oil and desire to have a cleaner 
environment. Farm belt governors score double points because 95% of 
ethanol is made from corn.
    However, this is just another energy deception. It takes more fuel 
to produce and deliver ethanol than it provides, meaning we import more 
foreign oil, not less. While ethanol is advertised as burning cleaner 
than gasoline, on balance it actually produces more and worse 
pollution. Ethanol emits higher levels of NOx emissions contributing to 
smog, and it makes gasoline evaporate faster, reducing its value while 
increasing pollution. It also must be shipped separately and mixed at 
distribution terminals, which simultaneously drives up costs, fuel 
usage and emissions.
The Big Hammer: The Endangered Species Act
    No single tool has been more effective in advancing the goals of 
The Wildlands Project than the Endangered Species Act. Say ``Endangered 
Species Act'' and most Americans believe this is a federal law that 
protects species in danger of becoming extinct. While that was the 
original intent, today the Act has very little to do with protecting 
species in trouble. It is simply a tool for anti-development groups 
posing as environmentalists to shut down any and all uses of public 
land, energy development being number one on the list.
    One of the fundamental flaws of the ESA is that species do not 
recognize state boundaries. If a species is determined to be 
``endangered'' in one state it may become listed as such even though an 
abundance of the species exist in other parts of the country or in 
other nations. For example, the Aplomado Falcon is listed as endangered 
in New Mexico when the species hasn't even existed in the state for the 
past half century. The Bureau of Land Management has restricted energy 
development on 36,000 acres on Otero Mesa just in case the falcon 
decides to come back. Even worse, the falcon can be found in great 
abundance on the entire continent of South America, throughout Central 
America, all of Mexico, and into Texas. An additional 88,000 acres on 
Otero Mesa are off-limits for other conservation concerns. Dozens upon 
dozens of cases such as this can be found all across the country.
    Another big problem is that once a species is listed it is 
extraordinarily difficult to get it de-listed. In the 32-year history 
of the ESA only 10 species have been removed from the endangered list 
because of ``recovery''. Even then, critics charge that some of those 
species were saved by private efforts and other activities such the 
banning of DDT.
    In New Mexico, the Gila Trout was first listed as endangered in 
1967. The U.S. Fish & Wildlife Service proposed downgrading it to 
threatened in 1987 but under pressure withdrew the proposal. Another 
request came in 1996. It didn't happen. Today the USFW is attempting a 
third time but is running into stiff objections from anti-development 
groups.
    Enforcing the ESA is very expensive to taxpayers as well as private 
property owners. In the west, the U.S. Fish and Wildlife Service 
estimates it will cost about $30 million to $40 million every year to 
protect the endangered southwestern willow flycatcher. Unfortunately, 
this kind of outrageous expense for species protection is the rule 
rather than the exception. Remember, there are 1,262 Endangered Species 
and obstructionists are filing lawsuits and lobbying hard to have more 
added all the time.
    There are many other flaws in the Endangered Species Act such as 
the fact that in many cases access to land is restricted based on the 
``Best Available Data'', which often stands for ``BAD'' data because 
data are incomplete and sometimes non-existent. Another flaw is the 
fact that private landowners lose use of their land because of an 
endangered species and they receive no compensation from the 
government. There are more problems, however the intent of this 
testimony is not to make suggestions on how to fix the ESA, but simply 
to point out that the Act is highly flawed and yet very powerful in 
restricting access to land for all purposes, most importantly to energy 
development.
Energy is Everything
    It is almost impossible to overstate the importance of oil and its 
powerful brother, natural gas. Without them our world would be 
completely different, more different than any of us can possibly 
imagine.
    Look around you and try to spot a single item that would still be 
there if oil were not. When people think of oil and natural gas, 
<plus-minus>they typically consider its obvious uses--gasoline for the 
car, a lubricant for the engine, and a power source for electricity 
generation and the heating of homes. What about rubber for tires, 
shoes, and seals on refrigerators, ovens, and car doors? Consider the 
importance of asphalt, fertilizers, pesticides, and glue. What would 
life be like without magic markers, lipstick, pantyhose, credit cards, 
dental floss, toothpaste, baby bottles, telephones, TVs, computers, 
soccer balls, paint, and synthetic fibers for today's clothing?
    The vast quantity of everyday items that contain some byproduct of 
petroleum is astonishing. Take these products away and our world would 
come to a sudden and catastrophic end. If somehow we could instantly 
remove the contribution of petroleum to our world you would find 
yourself standing naked and unsheltered in an open landscape among 
millions of other naked and unsheltered souls.
    It's a little unnerving just to think about it. There's only one 
thing more important to our survival than oil and natural gas, and 
that's oxygen. Yes, water, food, clothing, and shelter are essential, 
but in today's world the vast majority of the population cannot get 
these life-sustaining necessities without petroleum.
    Yet, in spite of these sobering realities, the a misinformed public 
stands by while access to oil and natural gas are denied under the 
pretense of ``environmental protection.''
Oil & National Defense: A Sobering Reality
    Oil--as well as all other energy sources--is directly tied to the 
success and survival of the United States of America. The same can be 
said of any other country. Fundamentally, no society can endure--let 
alone prosper--without two things: an adequate and affordable food 
supply and the availability of affordable energy. Because our food 
supply is almost completely dependent on oil, petroleum is the most 
important commodity we have.
    While it's quite clear that our economy and standard of living are 
completely dependent upon oil, it may be less clear that petroleum is a 
key ingredient in our freedom, too. Without adequate fuel supplies for 
fighter jets, battleships, tanks and other armored vehicles America 
would be vulnerable to any nation that wished to take what we have as 
their own, and that includes our liberty as well.
    Allied forces defeated the Axis powers in World War II for a 
variety of reasons--brave men and women, intelligent military leaders, 
and a home-front that made great sacrifices to give the military all 
that it needed while still running a nation. However, no level of 
bravery or sacrifice would have mattered if the United States hadn't 
had sufficient oil supplies to fuel victory.
    Freedom isn't free. It takes enormous sums of bravery, skill, 
passion, human ingenuity and the fuel to make it all work.
A Promising Alternative: Oil Shale
    One of the most promising alternatives to oil is what's called 
``oil shale''. The potential resource is enormous. It's estimated that 
there is over 200 times more oil shale than there are conventional 
reserves. Better yet, the United States is estimated to have 62% of the 
world's potentially recoverable oil shale resources at 2 trillion 
barrels. According to The World Energy Council the largest of the 
deposits is found in the 42,700 km2 Eocene Green River formation in 
north-western Colorado, north-eastern Utah and south-western Wyoming.
    The name is actually a misnomer because it does not contain oil and 
it is not often found in shale. The organic material in oil shale is 
kerogen and it's contained in a hard rock called marl. When processed, 
kerogen can be converted into a substance similar to petroleum. During 
this process the organic material is liquefied and processed into an 
oil-type substance. The quality of the product is typically better than 
the lowest grade of oil produced from conventional reserves.
    Unfortunately, oil shale poses several significant problems. 
Processing of oil shale requires significant amounts of energy and 
water. It also produces massive amounts of waste product. In the 1970's 
major oil companies in the U.S. spent billions of dollars in various 
unsuccessful attempts to commercially extract shale oil. However, as 
the price of conventional oil rises the economics of shale oil will 
improve. When that happens we can expect groups supporting The 
Wildlands Project philosophy to mount a well-funded and well-organized 
protest. As always, disinformation will lead their plan of attack.
A Difficult Task
    Getting the American public and government leaders to focus on the 
critical importance of responsible domestic energy production is no 
easy task. Re-educating the public about the nation's true 
environmental condition will be even more difficult. However, CARE was 
formed to address these issues because the stakes are extraordinarily 
high. The stability of our economy and the foundation of our national 
security are directly tied to our ability to produce domestic energy. 
It is bad public policy to continue to become more dependent on foreign 
and often unstable governments to fulfill our energy requirements, 
especially when environmentally responsible production is a reality 
today.
                                 ______
                                 
    Mr. Gibbons. Thank you, Mr. Mathis.
    And now we'll turn to Professor Boorse. The floor is yours. 
I look forward to your testimony.

   STATEMENT OF DOROTHY BOORSE, PH.D., ASSOCIATE PROFESSOR, 
 BIOLOGY DEPARTMENT, GORDON COLLEGE, REPRESENTING NOAH ALLIANCE

    Ms. Boorse. Thank you for the opportunity to appear before 
you today, Mr. Chairman and Members of Congress. You have my 
written testimony and I'll speak more briefly this morning.
    I'm an Associate Professor of Biology at Gordon College. My 
remarks today stem from two perspectives: one as a scientist 
and the other as a person of faith.
    Before turning to scientific questions, I would like to 
stress that people across the spectrum of religious life take 
the issue of protecting endangered species profoundly 
seriously. I am one example of this. I have come today not only 
to talk about the science, but also because I feel called by my 
faith to be here. As a scientist I am not an expert on the 
Wildlands Project, but I am an ecologist who can explain the 
importance of corridors. Corridors between core areas provide a 
number of ecological services to conserve species. These 
include increasing genetic diversity, providing space for wide-
ranging species. and allowing recolonization into areas where 
species have become extinct.
    Another way to understand the importance of corridors is to 
consider the serious, negative ramifications of the converse, 
habitat fragmentation, which has a gigantic impact on wildlife 
and ecosystems. For example, regionally floods occur at higher 
numbers and in--and have a greater impact, and erosion, 
including large mud slides, increase as a result of the removal 
of vegetation. Right now in the Amazon, the large fires that 
are in the new are larger than they would have been because of 
the habitat fragmentation. And the people who live there and 
use the resources of the Amazon are also being harmed, as is 
the wildlife.
    Habitat loss is widely recognized as the leading cause of 
species endangerment. Without habitat conservation, our 
society's priority in protecting species from extinction, which 
is reflected in our Endangered Species Act, will be impeded. 
The Endangered Species Act has acted as a safety net to prevent 
extinction and help a number of species stabilize, but habitat 
must be protected.
    These are not the only reasons to care about the 
environment. I personally believe that God has created the 
world for His own glory and given humans the task to care for 
it. Throughout the Judeo-Christian tradition, the role of 
nature in glorifying the Creator is a repeated theme. Species 
have value not only because we as people think so, but because 
it is clear that God thinks so. In addition, Christ calls us to 
a radical departure from the culture around us. We are exhorted 
not to seek fame and fortune, but to live lives focused on 
self-sacrifice and the task we have been given, including in my 
opinion, managing the rest of species.
    I'm not alone in viewing caring for creation, including 
endangered species, as an important part of my faith. While I 
speak for myself, the Committee should recognize the breadth of 
engagement, and members of the religious community to the 
protection of all of God's creatures. For example, a new 
collaboration of faith groups has recently been established 
called the Noah Alliance, who I am representing today. Work is 
also occurring in the Jewish and mainline Protestant 
communities to be a witness for the protection of fragile 
species and the U.S. Conference of Catholic Bishops has 
recognized this as an area of concern. You may expect to hear 
from people of faith, as we all together, witness with passion 
and resolve about the importance of endangered species.
    I, myself, in the mid '90s, wept when I had heard that the 
Ivory-billed Woodpecker had been declared finally extinct, and 
very recently was thrilled beyond belief to find that that was 
not true. I wake up in the morning, like many people, and I 
care about whether species are being preserved. And when I go 
to bed at night, I still care about that.
    From personal experience, I know other people in the 
religious community share this commitment.
    I would like to conclude by saying that we cannot fulfill 
our responsibility to care for the world, with which we have 
been entrusted, without understanding it. As scientists and 
Christians, I believe passionately that we need to be caring 
for habitats and for the species that use them.
    Thank you for this opportunity.
    [The prepared statement of Ms. Boorse follows:]

             Statement of Dr. Dorothy Boorse, Noah Alliance

    Thank you for the opportunity to appear before you today.
    I am an associate professor of Biology at Gordon College, in Wenham 
Massachusetts, with a Masters degree in Entomology from Cornell 
University and a Ph.D. in Oceanography and Limnology from the 
University of Wisconsin-Madison. Gordon is a Christian four-year 
liberal arts college in the Protestant tradition, but my comments are 
my own and do not represent the college. My remarks today stem from two 
perspectives: one as a scientist and the other as a person of faith who 
is concerned about being a steward of all creation.
    Before turning to scientific questions, I would like to stress for 
the committee that people across the spectrum of religious life take 
the issue of protecting endangered species profoundly seriously. I am 
an example of this; I have taken time to join you today to share some 
of my scientific knowledge, but also because I feel called by my faith 
to be here. I will talk about this more later in this testimony.
    As a scientist, I am not here as an expert on the Wildlands 
Project, but as a broadly trained ecologist with interests in both 
aquatic and terrestrial ecology. Specifically, I can address the 
questions: What is the ecological importance of corridors and problems 
of habitat fragmentation? And why should we care about protecting at-
risk species and their habitat?
    Corridors provide a number of ecological services to conserve at-
risk and endemic species. For example, the movement of individual 
members of species increases genetic variation; corridors provide more 
adequate space for wide-ranging species, such as the Florida panther; 
corridors allow recolonization of habitat patches where small 
populations may have been lost; and habitat linkages enhance the 
pollination and propagation of plants. Amphibians such as salamanders, 
for instance, often need to travel between upland over-wintering sites 
and breeding pools. Corridors can increase their survival during 
travel, particularly during dry periods, when open areas are more 
dangerous.
    Another way to understand the importance of corridors is to 
consider serious negative ramifications from the converse: habitat 
fragmentation. Considerably disturbing or destroying intact habitat has 
significant effects on wildlife. Habitat fragmentation makes it more 
difficult for species that require interior habitat to travel, 
increases the likelihood of individuals being injured when they attempt 
travel (primarily through injury by cars), and enhances the ability of 
non-native species to move into an area. The presence of introduced, 
invasive species correlates very clearly to habitat fragmentation 
through roads and other human use, often with severe impact not only on 
imperiled species but also on regional economies. For example, purple 
loosestrife is clearly connected to roadways, and the likelihood of 
infestation of zebra mussels in lakes is associated with their level of 
visitation by boaters. In addition, certain species, such as white-
tailed deer and ragweed, thrive on edges of habitat fragments and can 
become over-populated, part of a phenomenon called the ``edge effect.''
    Habitat fragmentation has a big impact on how ecosystems work. A 
good example in the news right now is the Amazon where there are 
gigantic forest fires, burning out of control. These fires are 
exacerbated by the edge effect. In one 1993 study, 90 percent of 
burning fires in Amazon basins were in forest edges. Forest trees are 
also more likely to be harmed by air pollution when forests are 
fragmented. In addition, habitat fragmentation has a significant impact 
on regional water issues and erosion. Because habitat fragmentation 
often involves removal of vegetation, soils are disrupted. Some desert 
soils, for example, have a top layer called the cryptobiotic crust 
composed of microbes and heavy particles; if you break this crust, you 
get erosion.
    Habitat loss is widely recognized as the leading cause of 
endangerment. Some benefits from enhanced habitat through corridors 
occur quickly; others take longer. However, they all demonstrate that 
adequate habitat must be protected in order to conserve threatened and 
endangered species. Much like homes for people, habitats provide basic 
necessities for fish, plants, and wildlife: food and water, areas for 
breeding and propagation, and shelter. For us to fulfill our 
responsibility to protect fragile species, we must ensure that critical 
habitat is safeguarded. Without such attention to habitat conservation, 
extinctions will increase, and our society's priority in protecting 
species from extinction, reflected for example in the Endangered 
Species Act, will be impeded. The Endangered Species Act has acted as a 
safety net to prevent extinctions and help a number of species 
stabilize, but for the Act to fulfill its potential, habitat must be 
protected.
    Conserving habitat also is vitally important for people. 
Pragmatically, we use resources from the environment that we will later 
wish we had treated better. Reports have shown this to be true in 
fisheries, where, for example, Nature has reported that 90 percent of 
large predator fish have been cleared from the seas in the last 50 
years. Ecosystems services such as purifying water and air, or 
dampening floods and holding soil in place, are performed by natural 
systems and are impossible or extremely costly to replace with 
technology. In addition, healthy ecosystems help protect species that 
are vital to agriculture, industries such as outdoor recreation, 
medicinal breakthroughs, and even our own oxygen supply. Moreover, if 
you care about the poor and oppressed, you have to care about the 
environment. Often the poor are most harmed by environmental 
degradation and least able to solve it. In short, we are all part of a 
complex and marvelous web of life, and the well-being of current and 
future generations depends upon us taking good care of it.
    But utilitarian rationales are not the only reasons to care for the 
environment. Nature brings us joy and pleasure, as well as at times 
declaring the glory of God. I am also here representing a Christian 
stewardship ethic. While I am an evangelical Christian, I realize we 
live in a society with a wide range of beliefs. Today's testimony 
reflects my own deeply held beliefs; others may care about creation for 
alternative reasons.
    I believe God has created the world for His own glory and given 
humans the task of caring for it. While we have the right to use its 
resources, this right is always in the context of our responsibility as 
stewards; the ownership of all remains in God's hands.
    Throughout the Judeo-Christian tradition, the role of nature in 
glorifying the creator is a repeated theme. Species have value not only 
because we as people think so, but also because it is clear that God 
thinks so. In addition, as a Christian I see that Christ calls us to a 
radical departure from the culture around us. Christians are exhorted 
not to worry about personal financial gain, not to seek fame and 
fortune, but to live lives focused on the tasks we have been given. One 
of these tasks is to care for the world left in our management.
    I am not alone in viewing caring for creation, including endangered 
species, as an important part of my faith. While I speak for myself 
here, the committee should recognize the breadth of engagement and 
commitment by members of the religious community to the protection of 
all God's creatures.
    For example, a new collaboration of faith groups has recently been 
established called the ``Noah Alliance,'' and one member of this 
Alliance is the Academy of Evangelical Scientists and Ethicists. A 
draft statement being prepared by the Academy reminds us that ``[t]he 
beauty, joy, and health of human life on earth depend deeply upon the 
wide variety and great richness of plant and animal life God has 
provided. This abundant life brings immense and continuous praise to 
God (Psalm 148), leaving all people without excuse about knowing God's 
divinity and everlasting power (Romans 120).'' Work is also occurring 
in the Jewish and mainline Protestant communities to be a witness for 
the protection of fragile species, and the U.S. Conference of Catholic 
Bishops has identified this as an important area of concern. This 
broad, multi-faceted faith community chorus is being raised at both 
national and local levels. They are making materials available to 
congregations across the country, working to meet with policy leaders, 
talking with the media, and talking with each other.
    You can expect to hear from many people of faith as they witness 
with passion and resolve about the importance of protecting endangered 
species. I wept at the thought of the ivory-billed woodpecker being 
extinct and praised God when we learned it was not. I wake up in the 
morning and care about species; I go to bed at night and still care 
about them. From personal experience, I know that many in the religious 
community share this commitment.
    I would like to conclude by emphasizing that we cannot fulfill our 
responsibility to care for the world with which we have been entrusted 
unless we understand it. For me, this is the connection between my 
faith and science. As an ecologist, I and my scientific colleagues are 
passionately convinced that to protect species, we need to provide them 
with ways to remain connected. As a person of faith, I am equally 
passionate and feel called to speak out for such connections as well as 
other protections for habitat and the overall environment. Thank you 
again for this opportunity to provide such witness.
                                 ______
                                 
    Mr. Gibbons. Thank you very much, Professor. I appreciate 
each of the witness's testimony here today.
    We will turn now to a 5-minute time of questioning and 
answering by the members of the panel. First let me begin by 
asking Mr. McDonnell whether or not he feels in his experience 
that there is an association with Government agencies with this 
whole philosophy of re-wilding the United States, and whether 
or not you feel from your experience, you or I or anybody in 
America could get an unbiased opinion, unbiased answer, 
unbiased solution from one of these agencies, wherein the 
people are associated with this wildland philosophy or re-
wilding America philosophy? Do you think the Government and 
agencies that are responsible for management of land could give 
us an unbiased opinion?
    Mr. McDonnell. Well, let me give you two examples where 
Federal agencies are involved in the Wildlands Project. 
Probably the best one is the grizzly bear plan. The grizzly 
bear right now is halting all energy development along the 
front range of Wyoming and Nevada, some of the biggest natural 
gas reserves known in the United States. The grizzly bear up 
there recovered in 1982 in the northern continental population. 
We've been trying since 1982 to get a delist, but always run 
into a lawsuit.
    In 1991, all recovery criteria was met. We began proceeding 
with efforts to delist it through the Interagency Grizzly Bear 
Task Force. The Wildlands Project's groups immediately began 
appealing and litigating.
    They came out with a 1993 Grizzly Bear Recovery Plan, and 
what it called for is basically the establishment of 6 core 
areas of grizzly populations in 5 States. It also called for 
the establishment of corridors, the one going from the bitter 
roots of Idaho, Montana to the Washington population, was 230 
some miles long, a corridor that was impossible for a grizzly 
bear to use. Yes, we have seen the establishment there.
    The other areas in your district or your area of Nevada, 
Mr. Chairman, and that's the Sierra Nevada bighorn. Right now I 
am faced with the removal of 120,000 sheep in that area. And 
what they have done is they have sat there, and number one, 
listed a species that we even question is even a species. We 
finally got a DNA sample from it and we find it's no different 
than any other bighorn. Number two, what we're seeing is we're 
having them transplant this bighorn--this is the Forest Service 
of the U.S. Fish and Wildlife--into areas of historic grazing, 
and then saying we have conflict, that the livestock must be 
removed. They tell us that they're putting them there so they 
can get their little core areas of bighorn critical habitat, 
and then that they can go ahead and establish their migratory 
routes.
    Yes, the Wildlands Project is being implemented by some 
Agency people.
    In terms of will they come out and admit it, for the most 
case, maybe over a beer, but in front of the public, never.
    Mr. Gibbons. Let me ask before I begin, from everybody, 
because we have a diverse group here and I want to get just an 
answer to a question. It may be just a quick answer from 
everybody because I only have about a minute and a half left in 
my 5 minutes here.
    Are you personally, or any of the organizations that you 
represent or companies you work for, anti-environmental or anti 
the preservation of species in this country? Mr. McDonnell, I 
start with you. You can answer.
    Mr. McDonnell. No, the answer is no. In fact I think our 
industry has done more in the last 20 years to work workable 
solutions to natural resource management, solutions that work 
for the benefit of both man and the environment, and I think 
that's probably true of most organizations.
    Mr. Gibbons. Ms. Conner?
    Mr. McDonnell. My answer would be no as well. The mining 
industry is extremely willing to work with the Federal agencies 
and the State agencies that we deal with to enhance wildlife 
habitat in our areas, and that's what we do on a daily basis.
    Mr. Gibbons. Mr. Mathis?
    Mr. Mathis. Absolutely not. You know, the interesting thing 
about oil and natural gas exploration in particular, which is 
pretty prevalent in my State of New Mexico, is that the people 
who live in the areas where the production takes place are very 
happy with that production and are very happy with the 
protection of the environment. Now, there are impacts, there 
are mistakes. These things happen. This happens to be the real 
world. And so those things are dealt with, but where the big 
protests come, where all the lawsuits come is they come from 
organizations that are in many cases outside the State, and 
certainly they get their funding from outside the State, or 
when they are within the State, they would come from say the 
City of Santa Fe and not from Artesia or from Farmington. The 
people who live in the areas where this production takes place 
are very mindful of environmental protection and the industry 
is very good at taking care of the environment and certainly is 
concerned about preservation of species.
    Mr. Gibbons. I am going to have to change the question just 
a little bit for Professor Boorse because I know where she is 
on environmentalism. She has already testified. Let me ask you 
the question, are you against development of oil, gas or any 
other fossil fuel energy in this country?
    Ms. Boorse. Thank you for asking that. No, I would say no. 
In fact I appreciate the comments of my colleagues at this 
table and I applaud the efforts that I have seen in all three 
of their industries as many have been very responsible, as they 
have been trying very hard. My concerns are with the ones that 
are not responsible.
    Mr. Gibbons. Sound very reasonable group that could work 
together.
    Turn now to my colleague, Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Just a couple of questions. Let me begin with Mr. 
McDonnell. Part of the issue with the Wildlands Project is the 
relocation of people kind of theory that goes out there, part 
of the conspiracy of thinking that goes on with this issue. But 
realistically, considering the spread of population across this 
entire country, do you think it is reasonable to assume that 
all these people would be removed from their properties, and 
how in the world would that be done?
    Mr. McDonnell. Number one, sir--and I thank you for that 
question--is a third of the United States is already into 
Federal properties, and if you look at all the protected 
properties across State and private conservation groups such as 
Nature Conservancy, probably half. There is no big need to 
remove the people. What I have seen is you remove the economic 
base and the people move on by themselves, and this is more 
what I am seeing with the Wildlands Project, entire timber 
communities being shut down and people having to relocate 
elsewhere.
    And the economic impacts of some of these actions have been 
tremendous. You take the Pebbles Jumping Mouse in Colorado and 
Wyoming where I live. They listed it. We found out through DNA 
evidence it's no different than the Common Jumping Mouse. We're 
moving toward delisting, but it's already cost in Colorado 
alone $4 billion, and it may be another two years before we get 
the thing delisted.
    The economic impacts of some of these actions are 
tremendous. The spotted owl with the----
    Mr. Grijalva. That is a good point if I may follow up on 
where your thought is going. In page 2 of your testimony you 
say the Wildlands Project has abused the listing process.
    Mr. McDonnell. Yes.
    Mr. Grijalva. On page 3 you recommend the listing and 
delisting mechanisms of the Act must be addressed, so only 
species in need of protection are listed. Yet the General 
Accountability Office looked at the issue and found in 2003 
that the listing decisions are based on best available science. 
The GAO said: Further evidence that listing decisions are 
scientifically sound is provided by the fact that only 10 of 
more than 1,200 domestic listed species have been delisted 
based on new scientific information that surfaced.
    Given that, given your train of thought and given the GAO 
report, is the GAO wrong?
    Mr. McDonnell. Are they wrong? Number one, they said in 
regards to best available science. And to me that's kind of 
deceiving because best available science means whatever's 
available. It doesn't mean it's necessarily good science.
    Yes, I do think they're wrong in the sense that we to 
address the issue of scientific evaluation. There's a joke out 
there in the community that best available science is B-A-D, 
bad science in many cases.
    Mr. Grijalva. Thank you.
    Mr. Mathis, just one request. Mr. Chairman, Mr. Mathis, in 
his written testimony provides numerous quotations for various 
sources throughout the statement, and there are no footnotes or 
citations for my office to be able to follow up on, and if it 
would be OK that those footnotes and citations to some of the 
information could be provided for the record, I would 
appreciate that very much.
    Mr. Mathis. Absolutely.
    Mr. Grijalva. Thank you. Mr. Mathis, just a general 
question. Do you support the tenets of the Wilderness Act, and 
do you see any value in the preservation of land and natural 
resources for generations to come? That is my question.
    Mr. Mathis. Absolutely. We have large percentages of land 
in the United States currently that are set aside for 
wilderness, and when you look at the development of the United 
States, many people would be surprised that we've only got 
about 5 percent of the country that's urbanized. We do have 
large open spaces.
    But when you're talking about something like species 
extinction or any other environmental issue, you've got to 
balance that, and that's what we need in this whole debate is 
some balance, and we have to understand that just because 
there's activity in an area, that doesn't mean that, OK, the 
wildlife is just going to run, it's going to become extinct, 
and it's just--to use the word that activist groups constantly 
use--destroyed. I can e-mail you a photograph of a bird sitting 
inside of a pump-jack on an oil well.
    Mr. Grijalva. And, in return, I would like to provide those 
citations and information given the Aplomado Falcon in Otero 
Mesa, that there have been sightings in--confirmed sightings in 
1990, 1999 near Deming, 2000, 2004, east of San Antonio, New 
Mexico. Those are citations in the literature which BLM used as 
a criteria to set aside those 35,000 acres. Yet, in your 
testimony you say there has been no sightings in 50 years.
    Mr. Mathis. There is no nesting pair that has been--that 
you can point to and say, hey, there's a nesting Aplomado 
Falcon pair. That's not been found. And I have--one of the 
problems that we have with the Endangered Species Act is the 
fact that wildlife does not recognize State boundaries. So what 
sense does it make to say, OK, we need to restrict 36,000 acres 
from energy development just in case the Aplomado Falcon comes 
here, when it's in huge abundance from the tip of South America 
all the way to Texas?
    Mr. Grijalva. Thank you.
    My time is up, and thank you for your courtesy, Mr. 
Chairman.
    Mr. Gibbons. Thank you.
    Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    First of all, I would like to thank each of you for being 
here, and reading the testimonies last night I thought this 
would be a very interesting and informative group.
    I would like to start with Mr. McDonnell. And I think I am 
just following upon the previous question, but when you were 
talking about lands being targeted for acquisition, is there 
any thought in there that would be done through an eminent 
domain process or it would be done in seller/willing buyer 
because of the loss of this base of jobs and people would have 
no other recourse?
    Mr. McDonnell. Well, from what I have seen in the 
acquisition of private property, that they're proceeding in 
several ways. Number one, critical habitat, and of course using 
Federal monies to get it designated critical habitat. There are 
Federal monies to purchase that.
    Mrs. Drake. Is that through an eminent domain process?
    Mr. McDonnell. Not necessarily. The other thing, probably 
the bigger way is through the land trust themselves, and that's 
going out and purchasing, and we all know how Nature 
Conservancy and the large number of land trust groups there 
are. That's probably even bigger than the Government 
acquisition.
    But the willing seller, that's kind of a question. I really 
haven't seen the eminent domain. I've seen the willing seller, 
but why that seller is now willing, that's the big question. A 
lot of times it's economic.
    Mrs. Drake. I would also like to ask you, because we know a 
goal of the Wildlands Project is 50 percent of these lands to 
be kept open, and you've already stated that almost one-third 
are Federal lands. Have we ever made the effort to see what is 
that percentage if we go with State-owned properties, local-
owned properties or properties that may be undevelopable 
because of zoning requirements, wetlands rules, things of that 
nature? Have we ever made that effort to--I think you did make 
the statement we are probably at 50.
    Mr. McDonnell. Some groups have, and the simple fact, there 
are almost no lands in the United States that are free of 
Government regulation in some way. They're either owned by them 
or there's some type of regulation governing those, whether it 
is wetlands. If you take all the critical habitat for the 
United States on all 2,000 species now listed, you basically 
blot out the entire land mass of the United States. That's how 
deep this regulation gets.
    Mrs. Drake. Thank you.
    Ms. Conner, would you agree with us, because we have seen 
pictures when we were discussing the energy bill, of the 
changes that have taken place in our Nation in the last 100 
years, that we truly did do things wrong and we are doing 
things completely different today. And we have seen the 
pictures of the caribou at the Alaskan pipeline. So would you 
not say that, yes, we have done things wrong, but we have 
learned they were wrong. We are doing things completely 
different?
    I have personally visited where we have done some of the 
coal mines in Pennsylvania that have been reclaimed and are 
beautiful parcels of land now.
    Ms. Conner. Yes, I would totally agree with that. 100 years 
ago, yes, we did do things wrong and we did them badly. We've 
learned a lot from that experience, and regardless of whether 
it's oil and gas or mining, which I have been involved in both.
    I have seen on the North Slope what you're talking about, 
caribou under the Trans-Alaska Pipeline, for example. Out at 
our mining operation we have elk that wander through the area, 
and it's because of the way we do our reclamation. It's because 
of the way we organize our operations. We've learned a lot and 
we do things drastically differently than we used to.
    Mrs. Drake. And I think what you hear today is that we all 
have the same goal, we want to protect our environment, but we 
also want to make sure that our needs are met.
    And, Dr. Boorse, just real quickly. I am wondering if this 
were 1950 and we were discussing building the interstate 
highway system whether your group would be sitting here saying 
we should not do that because it will fragment and the species 
will not be able to cross, and I just always think that we 
could not build those highways today with the rules that are 
currently in place. Can you comment on that? I know that is an 
odd question.
    Ms. Boorse. You know, I wasn't born then so I'm not really 
sure what I would have thought in the 1950s. I think at that 
time there wasn't a sense of urgency that there is today, and I 
think----
    Mrs. Drake. Well, if we were building them today, if we did 
not have them, and the impact that certainly crisscrossing the 
country with major highways would have in what you have just 
described about animals.
    Ms. Boorse. Could I think about that and answer that in 
writing?
    Mrs. Drake. Sure, you can get back with us.
    Ms. Boorse. Thank you.
    Mrs. Drake. OK. Thank you, Mr. Chairman.
    Mr. Gibbons. We will try to have a second round of 
questioning for every member as well, so you will have an 
opportunity to think about it and give us an answer.
    Mr. Melancon.
    Mr. Melancon. No questions.
    Mr. Gibbons. OK. Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. We have two great 
people from New Mexico, neither of whom live in my district, 
but we are recruiting them every day.
    [Laughter.]
    Mr. Pearce. Thank you for your testimony and for your hard 
work.
    I think that my first question might be for Ms. Boorse. Do 
you believe in the Bible where it says that man should have 
dominion over the plants and animals, yes or no?
    Ms. Boorse. Yes, I do.
    Mr. Pearce. So if it comes down to having dominion over the 
plants, are we to cut timber or are we not to cut timber?
    Ms. Boorse. You know, you can cut some timber, but you 
can't cut everything, and that's I think the difference between 
having dominion in the sense of tending a garden, and having 
dominion in the sense of misusing something.
    Mr. Pearce. Have we exercised judgment in our stewardship 
of our forests in the West?
    Ms. Boorse. I didn't hear that. Say that again?
    Mr. Pearce. Have we exercised stewardship and exercised 
good judgment in our stewardship of the forests of the West?
    Ms. Boorse. I don't think we exercised as good judgment as 
we might have.
    Mr. Pearce. And how would we have improved that?
    Ms. Boorse. One would have been during the period of time 
when people did a great deal of logging all the way from New 
England across the Midwest and then into the Pacific----
    Mr. Pearce. But the last 50 years has been OK?
    Ms. Boorse. I am not a forester and would prefer not to 
speak as an expert on that, but I would say----
    Mr. Pearce. Well, you are here speaking as an expert on 
ecology, and I am asking is it better for fires to burn the 
West down or is better for us to cut trees?
    Ms. Boorse. Actually, there's a lot to know about forests 
and fire.
    Mr. Pearce. Is it better for us to burn the forests down 
like we are doing in the West now, or is it better to cut 
trees?
    Ms. Boorse. I would not like to see it as that dichotomy. 
I----
    Mr. Pearce. It is that dichotomy. We burn down about a 
million, 2 million acres every year, even more in my State. I 
fly over hundreds of thousands of acres. In our State we start 
putting out fires about 100 years ago, and our arid climate 
would support about 50 trees per acre. Now we are up to 2,500 
trees per acre, and they are small diameter, so they are kind 
of kindling to get the fires up to the top of the trees, and so 
now we have cap fires that kill the forests, instead of burning 
among the trees. Our tree rings show us that historically fires 
would burn about every 8 years, clear out all the small brush. 
We had pretty good habitat. I have walked among some of those 
forests with 2,500 trees per acre, and I guarantee you, a pig 
cannot crawl through there, much less a spotted owl fly through 
there. And so I am wondering where the stewardship is.
    Ms. Boorse. I think you may have answered your own 
question. It sounds like we have not done a good job in 
forestry in the Pacific Northwest.
    Mr. Pearce. No, this is the Southwest I am talking about. 
This is New Mexico, Arizona.
    Ms. Boorse. The Southwest.
    Mr. Pearce. That is where we don't get much rain.
    Ms. Boorse. But to answer your question about fires, in the 
great Yellowstone fires, one of the things that we saw was that 
the fire suppression that happened in the first half of the 
century in the 1900s had a tremendous negative effect, causing 
even greater fires that we could not control in the second half 
of the century. So our fire plans have not been good.
    What you are describing, with many saplings squashed 
together, is not good. But some of that comes from the 
incursion of roads and habitat fragmentation. Not all of that 
is the fact that we are not, as I think you are describing----
    Mr. Pearce. Is the grazing of animals that are domesticated 
worse than the grazing by elk; say, livestock versus wild 
animals?
    Ms. Boorse. That somewhat depends on the animal. As a broad 
statement, I would not say so.
    Mr. Pearce. But you would understand that people who agree 
with you philosophically are using the argument to drive the 
ranchers out of business in the West, take them off of public 
lands, stop the grazing, because they declare grazing by 
domesticated animals to be more harmful than grazing by wild 
animals? Would you agree or disagree with that position by 
people who are on the same side of the issue as you?
    Ms. Boorse. I think the issue is more than two sides.
    Mr. Pearce. No, I am just asking if you would agree or 
disagree with the people who are taking the livelihood away 
from the ranchers in my state, saying that the grazing by 
domesticated animals is worse than grazing by elk.
    Ms. Boorse. I would not agree with that you have just said, 
as a broad statement.
    Mr. Pearce. Then would you work with us to make changes to 
the Endangered Species Act when people are using it as a tool 
against people? Would you work with us to try to find the 
common sense balance that would allow us to have dominion over 
the plants and animals, but would also allow us to keep the 
obstructionists and the extremists from trying to move 
agriculture completely out of the state, and oil and gas out of 
my state?
    Ms. Boorse. I would want to see what changes were proposed 
to the ESA. But if I was to propose changes, I would want to 
propose that the voice of scientists in particular be listened 
to. And I know that the Ecological Society of America and the 
National Research Council produced some reports on the ESA and 
how it worked. And I know that there was a recent letter from a 
large group of scientists, including 62----
    Mr. Pearce. Mr. McDonnell, have scientists been involved in 
the discussions that declare that grazing by cattle is worse 
than grazing by elk?
    And I see my time has elapsed. It will be my last question, 
Mr. Chairman.
    Have scientists been involved on the other side of the 
issue, declaring that? I mean, Ms. Boorse is saying that we 
have somehow omitted scientists out of it. Are the scientists 
that come up with the opinion that to me doesn't make much 
sense, but maybe they----
    Mr. McDonnell. Typically, what we have seen is these groups 
throw out the allegations, and then, of course, with industry 
then you have to go in. You have to bring in the scientists who 
do the monitoring, who look at the natural resources. And then 
they become involved, but mostly because it is the industry 
that is bringing them in to defend their position in the 
allegation alleged against them.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Gibbons. Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. Let me ask Mr. 
McDonnell--and I apologize for being late, so I may have missed 
some things--but with regard to the Wildlands Project, have you 
discussed how the state and Federal governments could work 
better together?
    Mr. McDonnell. Have I discussed that? In what way do you 
propose they work better together?
    Mr. Gohmert. That is what I am asking.
    Mr. McDonnell. Well, in the Wildlands Project--I am not 
quite sure how to address this. I think right now we are seeing 
states and the Federal Government work better than we have ever 
had. With revisions in NEPA, with revisions in forest planning, 
I do think we are getting much better cooperation between the 
two entities; new memorandums coming out with CEQ on local 
involvement. I would say that level of interrelation between 
the agencies is probably as good or better than I have seen it 
in years. Especially in the last three years, we have really 
moved better toward cooperation. Does that answer your 
question?
    Mr. Gohmert. Well, you noted that you feel like they are 
working better together. But if I could ask Ms. Conner, do you 
see areas where the Federal Government could do a better job in 
working with state governments?
    Ms. Conner. I can't think of any examples offhand. In 
Nevada I work with the Forest Service and the state government, 
and I think over the years, the last number of years, they have 
actually started to work better together. There was a time in 
the '90s or so, it was more butting heads kind of thing. But I 
think today there is more of an understanding, if you will, of 
the different ways they fit together. And today I think we are 
actually doing a better job overall.
    Mr. Gohmert. Well, let me ask Mr. Mathis. Do you see 
anything we could be doing better as the Federal Government to 
work with state governments?
    Mr. Mathis. Before I answer that question, sir, we do have 
a situation in our state that is a classic example of non-
cooperation. We have the Bureau of Land Management that has 
come in after many years of study on Otay Mesa. And they came 
in and they issued this resource management plan they have 
worked on for many years that is--their claim--the most 
restrictive plan ever issued. And we are talking about numbers 
where you can have 86 producing oil or natural gas wells on 
this 2 million acres. You know, in oil and gas country, that is 
nothing. I mean, you go up to San Juan County----
    Mr. Gohmert. Sure.
    Mr. Mathis.--to an area that is smaller than that 2 million 
acres, and they have 26,000 wells there. This is not going to 
help us to sustain ourselves when it comes to oil and natural 
gas; which we are using a lot of, and we are using more all the 
time.
    So we have the BLM that has issued this resource management 
plan; but yet we have the state government, the Governor in 
particular, who is suing the BLM. Governor Bill Richardson is 
suing the BLM because this plan is not restrictive enough in 
his opinion.
    So I would say, as far as how to get these two entities to 
get along better, I wish I had an answer for you. I don't. So 
much of what we see here, you know, it's intractable politics.
    Mr. Gohmert. Do you think it would help if we said 
Governors could not run for President until after they----
    [Laughter.]
    Mr. Mathis. I think I would go for that.
    Mr. Gohmert. I'm sorry. I will withdraw that question. I am 
sorry.
    Mr. Mathis. That would be helpful.
    Mr. Gohmert. And Dr. Boorse, do you have any observations 
in that regard?
    Ms. Boorse. Governors?
    Mr. Gohmert. State and Federal Government working better 
together?
    Ms. Boorse. Not other than the broad conversation that I 
would love to see state and Federal Government also work with 
citizens. Because I think what I am hearing, and has already 
been reflected, is that there is such a level of frustration 
that people are not sure that we are working toward the same 
goals, and that getting citizenry on board with the things that 
the Federal and state governments are doing and explaining why 
it matters and making sure that stakeholders feel honored, and 
at the same time that habitat goals are met, has to be a part 
of that process.
    Mr. Gohmert. I thank you, Mr. Chairman.
    Mr. Gibbons. Thank you. Mr. Melancon has indicated that he 
wants to wait a little bit and listen to more of the testimony, 
so we will go back through a second round with questioning 
here.
    And I guess I would have perhaps a question of science for 
Professor Boorse. If we were to use DNA, as Mr. McDonnell has 
said, about distinguishing between species that are truly 
unique and non-unique, would that be a criterion that you would 
accept for identifying species that should be protected that 
are within a subset, a category of truly unique species that 
are separate and apart from other species? Should that be one 
of the scientific changes to the ESA that allows for a 
distinction to be recognized between a group of species?
    Ms. Boorse. I would want to see the exact proposal before I 
agreed to that, necessarily. DNA analysis is one of many tools. 
But one of the places where it would probably be a problem 
would be, for example, with salmon, where salmon not only 
differ in terms of their DNA but, with those with very similar 
DNA, differ in terms of their abilities, different habitats. 
And we could easily over-estimate their similarity and lose 
large chunks of salmon. And you know how important that is in 
the economics of the Pacific Northwest.
    Mr. Gibbons. Well, in some cases, species are listed only 
because there are a small number available at that location; 
and yet, in another location, as we heard in the testimony, 
there is a number of these animals or species in some other 
location that would not allow for qualification as an 
endangered species. So is it regional, or is it indeed the 
species itself that is unique that makes it worth saving?
    In other words, is it an area, or is it the species? 
Because if it is DNA similar in this area, and DNA similar in 
this area, it is not a unique species. It is just one has few 
to no species in it; the other has a lot. So why can't, in the 
instance of the bird that Mr. Mathis talked about earlier that 
is in South America versus New Mexico, it be distinguished by 
DNA?
    Ms. Boorse. I don't know the specifics of that bird 
example. I do know the species are listed because they are 
known to be in decline. And I would presume that the species 
has been found to be in decline even in the areas where it 
occurs.
    Mr. Gibbons. Let me go back and talk to Ms. Conner. You 
spend a lot of money each year with your company doing 
scientific studies with regard to species that affect the 
ability of your company, the ability of your industry, to 
produce the needed minerals, etcetera, that this world--
actually, more than just the United States; it is the world--
needs. What happens to those studies? What happens to that 
science?
    Does it become part of the determination of whether or not 
the species is indeed in a critical condition? Or does it just 
get shelved? You spend a lot of money on it.
    Ms. Conner. Yes, we do. We spend hundreds of thousands of 
dollars. Prior to my starting to work for Queenstake, as I 
said, in the '90s there was a great deal of effort and a great 
deal of studies that were undertaken to look at the northern 
goshawk in the Independence Range. And that work actually was 
utilized, as I understand it--again, I was not there; but that 
work was utilized to help show that the northern goshawk was 
not potentially threatened or endangered. So in this case, it 
did not just go and sit on a shelf somewhere, but it was used 
in our case to show that there was not a need for listing the 
species.
    Mr. Gibbons. Was the species ultimately listed?
    Ms. Conner. No. But we are still having to spend tens of 
thousands of dollars each year in order to continue our nesting 
surveys that I spoke of, just to ensure that.
    Mr. Gibbons. And if I may, the continuing study that you 
spend hundreds of thousands of dollars on, does it show a 
decline of the species because of your operation?
    Ms. Conner. No. It does not.
    Mr. Gibbons. And are people still attempting to list that 
bird as endangered?
    Ms. Conner. Not at this time.
    Mr. Gibbons. OK. Thank you.
    Mr. Melancon.
    Mr. Melancon. I am just trying to grasp hold of whether we 
are talking about endangered species or the Wildlands Project.
    Mr. Gibbons. Well, let me explain. We are not here to 
address the ``bogeyman'' concept. What we are trying to find 
out is the impact of environmental regulations, the impact of 
proposals by some groups on the economic standards of America.
    Mr. Melancon. Well, if that is the case, then I guess, Ms. 
Boorse--and I am not familiar with the Noah Alliance, per se--
but in my concern in Louisiana, and as far as the concern for 
the whole country, I want to protect the environment and the 
fisheries and the estuaries and such as that. But we seem to 
have gotten ourselves into this labyrinth of regulations that 
stymies. And every time I listen to people that talk about jobs 
that are going to other countries that have the resources and 
leaving, taking the good jobs, I am concerned that we are 
regressing.
    Is there some way to put together the environmental groups 
to sit down and try and find some rational way to better the 
Endangered Species Act, to better the way we analyze it, to 
make it a faster process? Or is it just that you have some of 
them that just want to stay out there and not sit down and talk 
about those things? That may not be a fair question, but you 
are the person here, so I am asking you.
    Ms. Boorse. I can't speak for every environmental group, 
but I can say that I, as an individual, and the groups that I 
do know that are especially in the faith community, have 
peacemaking and getting along as a very high priority; and care 
of people, and care of the environment, as not being opposed.
    And so, I care deeply that the people of Louisiana have 
jobs, and hope that we never are in a position where we have to 
choose between jobs for people in Louisiana and protection of 
the species God gave us. But we do have to do both. And I would 
love to be a part of that conversation.
    Mr. Melancon. And I would hope that we could. Maybe that is 
something that we need to do that maybe hasn't been done, is 
sit down, or get the agencies to sit down, and try and start 
formulating how we can work together better; rather than every 
time somebody says, ``Well, we think we want to do something,'' 
there becomes this human outcry and protest, rather than sit 
down and see if we can work through them. Yes, ma'am.
    Ms. Boorse. And I absolutely agree with that, and think 
that we have somewhat lost the ability to have a civil 
discourse that leads to a positive end point in this country.
    Mr. Melancon. You have been watching the Congress on C-
SPAN.
    [Laughter.]
    Mr. Gibbons. Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chairman. Dr. Boorse, I doubt 
you have had time to think about my question, and certainly we 
appreciate you getting back with us in the future, but the 
reason I have asked the question is I think we are at just as 
critical a situation right now with energy production as we 
were with developing highways over these last 50 years. We all 
know that 63 percent of our oil today is imported.
    You heard in this Committee today the Chairman talk about 
China. There is not a committee that I attend here that China 
isn't brought up in almost every single meeting of every one of 
those three committees. And I think that energy production for 
us is a huge national security issue.
    I think, from what we talked about today, we all agree we 
have to protect our environment for our children. But I believe 
that if decisions we make today are going to impact our 
national security in the next 10 to 20 years, and that if we 
fail them and lose our freedom and democracy, that is the 
greatest gift that we give to them.
    And so that is where I am coming from. Because every time I 
ask the question of experts, ``What is going on with China? Why 
are they positioning themselves? Why are they building ten 
times the ships that we are building, even though they are 
doing that with less money?'', the answer is always, 
``Resources.''
    So I guess my question to you, because I have read that 
over 80 percent of the American people support the Endangered 
Species Act, I wonder how many of them would support it if they 
thought they were endangering our national security, or if they 
thought they could be getting into an environment where the 
energy is not available to them and they are either going to be 
paying much higher gas prices or are in an environment where 
you don't have the electric power. Like, let's say, on Mondays, 
Virginia doesn't have electricity, and on Tuesday, Ohio doesn't 
have electricity--as soon as people don't have access to that.
    And I guess the biggest question is, do you feel as 
strongly as I do that we really are at a crisis point and we 
have to make decisions for the future now that will allow the 
North American continent to be energy independent?
    I guess we could start with you, Ms. Conner, because I am 
very fascinated by your work and the permitting that you have 
done over the years, because I think that is a huge issue that 
is a stumbling block for us. But at the industry level, are 
people worrying about that? I don't think the American people 
are. I think we have been very lulled into a sense of security 
that I don't believe is there.
    Ms. Conner. Well, I would agree with you. I think, you 
know, the average person goes, fills up their car with gas, 
and, you know, they don't worry about where it is coming from. 
But I think those of us in the various industries, especially 
energy-related industries, we are all very concerned about 
that.
    On the mineral side, as an example, it is important for us 
not to rely on foreign sources. We need to be looking on our 
own ground. And we have enormous amounts of energy and minerals 
here, and we should be concentrating on that. But the foreign 
dependence thing is an issue, and I think it should be 
seriously----
    Mrs. Drake. Well, and to follow up on that, I would like to 
ask Mr. Mathis, is there one environmental regulation or law 
that you see as having the greatest negative impact on energy 
production in our country?
    Mr. Mathis. Well, without question, that is the Endangered 
Species Act. What you are seeing is, I mean, environmental 
groups will say, you know, ``We have got `X'-percentage''--and 
that number varies-- ``90 percent that's open to oil and 
natural gas drilling.'' And that is not true because you can 
have places that are effectively off limits because for one 
species you can't drill an oil well during, you know, the first 
three months of the year; for another species, you can't drill 
for oil beginning in March, and you can't drill until June. And 
you have all these overlapping times in which you are allowed 
to drill.
    And what you wind up with, in many cases, is such a small 
window that they can't get in and drill the well within that 
window; especially considering the economics of the industry 
where you may not be able to get a rig--I mean, you can't time 
it exactly, because this country is run by independents that 
don't own the rigs. That is a subcontracted issue.
    Mrs. Drake. So the biggest issue is the law itself, or 
misuse of the law? Or both?
    Mr. Mathis. I would say both. But I think it is just that 
the general public doesn't understand. When you poll 84 percent 
of the people and they say, ``Yes, we are in favor of that''--
because it sounds good.
    Mrs. Drake. Right.
    Mr. Mathis. ``Endangered Species,'' it sounds like we are 
being responsible. What they don't understand are things like I 
spoke of, where you have a species that is crossing a state 
line.
    You know, the Aplomado falcon, I use that as an example 
because any species is going to have an expansion and a 
contraction of its habitat. That is just nature; I mean, things 
are constantly in flux. And so if during an expansion period it 
just barely comes over the line in the State of New Mexico, 
well, suddenly we have to restrict all of this energy 
development, because this falcon might want to come back here. 
Well, that is nonsense, especially when the habitat exists for 
thousands of miles to the south.
    Mrs. Drake. I would like to thank all of you, and Mr. 
Chairman.
    Mr. Gibbons. Thank you, Mrs. Drake. Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. Mr. Mathis, how much 
has the grazing herd on public lands decreased, the cattle 
grazing herd, in the last five years, in your guess? I wouldn't 
expect you to know exactly. Is it increasing, or decreasing? 
I'm sorry, Mr. McDonnell.
    Mr. McDonnell. It's been decreasing. Especially in your 
state, Mr. Pearce, we have seen the BLM, Forest Service, 
cutting allotments 50 percent or more. And that is something 
that we have been working with the agencies, because at this 
time there is a lot of under-utilized resources. But it is 
decreasing on Federal lands.
    Mr. Pearce. Decreasing, sometimes up to 50 percent. And 
these are economic units. That is, a permit is an economic unit 
that is either inherited or purchased; is that right?
    Mr. McDonnell. Yes.
    Mr. Pearce. And it is purchased at a certain level of 
grazing. And without adjustment to that price, the agencies are 
reducing the number of animals that are allowed to graze on it?
    Mr. McDonnell. That is exactly right.
    Mr. Pearce. OK. Now, Mr. Mathis, I'm sorry, what has 
caused, in your guess, the price of gas to go from about $2 ten 
years ago, five years ago, to about $7 to $8 now? What is the 
leading factor?
    Mr. Mathis. It is restriction on access. We have 
historically done very well with natural gas in this country. 
It was stabilized at about $2 for many years. And now it has 
shot up, as you mentioned, Mr. Pearce, up to $7. And what it 
is, is access, getting to it.
    As I mentioned in my testimony, the National Petroleum 
Council has said that effectively more than half of all natural 
gas in the Rockies is off limits. More than half.
    Mr. Pearce. OK. Ms. Conner, if you were to take a guess at 
the number of gold mining jobs today versus ten years ago, what 
would your guess be? And it is OK to guess.
    Ms. Conner. That is a----
    Mr. Pearce. Is it decreasing, or increasing?
    Ms. Conner. Well, in all honesty, right now, because of the 
price of gold, I would have to say that the number of jobs have 
increased. But at this point in the game, we are having a hard 
time finding qualified individuals.
    Mr. Pearce. Right. It is the price of gold. What is driving 
the price of gold up?
    Ms. Conner. Your guess is as good as mine.
    Mr. Pearce. It is what?
    Ms. Conner. Your guess is as good as mine.
    Mr. Pearce. OK. What is driving the price of copper up?
    Ms. Conner. Of copper?
    Mr. Pearce. Uh-huh. That would be China. That is my guess. 
And I suspect that China is demanding all resources.
    Ms. Conner. They are.
    Mr. Pearce. It is helping to drive the price up, too.
    Ms. Conner. Yes, they are.
    Mr. Pearce. So the fact that we have a little higher price 
right now and a few more jobs in some of the mining industries 
is actually an indicator of a threat to our economy. China is 
driving up all resources because they are gobbling them up. And 
they are gobbling them up because they are producing things 
that we are buying. And as we buy, we increase the size of 
their economy and decrease the strength of ours.
    Dr. Boorse, you heard about access and you heard about the 
restrictions during the different parts of the year. If 
scientists said that we should not allow drilling in the first 
three months and the last three months and before nine o'clock, 
in order for the lesser prairie chicken to procreate--which is 
exactly what they have said--would you think that this Nation 
should suffer the price of natural gas increase? Or should we 
try to find ways to help those poor lesser prairie chickens to 
find some other way to mate? Would you support artificial means 
of helping those chickens procreate, or would you say that the 
scientists who have restricted the drilling are more correct?
    Ms. Boorse. I am not sure what my options are. Artificial 
insemination for the prairie chicken?
    Mr. Pearce. Yes, you have heard the testimony. They say you 
have to not allow drilling to occur during a period of year 
because that is when the chickens breed. And so I am saying, 
should we accept a higher price of gas, or should we find a way 
for the lesser prairie chicken to breed, and go ahead and 
drill?
    Ms. Boorse. Well, I would want to know more specifics about 
for example----
    Mr. Pearce. OK. Is extinction a part of God's plan?
    Ms. Boorse. That is a fabulous question.
    Mr. Pearce. Is it due to man, or is it part of God's plan?
    Ms. Boorse. Can you just give me a second?
    [Pause.]
    Ms. Boorse. Throughout the history of the natural world, 
extinction has occurred, and that has surprised a lot of 
people. In fact, Thomas Jefferson said that fossils couldn't 
actually be real things, because God would not have created 
something and then let it go extinct. But in fact, we know that 
is not true. We know lots and lots and lots of things have gone 
extinct.
    But we also know the rates of those extinctions. And the 
rate of today's extinction is between 100 and 1,000 times 
higher than any extinction rate in all of history. So it is 
sort of like asking if a meteor comes and hits you on the head 
and you get very badly injured, is it different than if I hit 
you on the head and you are badly injured? God has a right to 
do things that we don't have a right to do. And we don't have a 
right to do it at the pace it is occurring.
    And so I would say, yes, extinction is part of God's plan, 
but He gets to do it.
    Mr. Pearce. Mr. Chairman, I see my time has elapsed. Let's 
make an observation. If extinction is occurring at such a more 
rapid rate now, why are fossil fuels declining in numbers 
rather than increasing in numbers? I will leave that for a 
future discussion.
    Mr. Gibbons. Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. I am just curious, 
Dr. Boorse. You know, we have been talking about the U.S. and 
what we can do, since we all have an interest in protecting the 
environment. But I am curious, are you familiar with how 
environmentally friendly nuclear powers in the world are, such 
as China, the former Soviet Union, India, how environmentally 
friendly they are?
    Ms. Boorse. I know that eight of the ten most air-polluted 
cities in the world occur in China. And I know that the single 
most polluted lake in the world occurs in a former Soviet 
republic where you cannot----
    Mr. Gohmert. I am sorry, what was the last thing you said? 
The most what?
    Ms. Boorse. Most polluted lake in the world.
    Mr. Gohmert. Lake?
    Ms. Boorse. Occurs in a former soviet republic. And so I am 
aware that those two in particular have a pretty negative 
environmental record.
    Mr. Gohmert. OK. Thank you. Well, I have been in the former 
Soviet Union 30 years ago, and that was my impression. They 
didn't do much to take care of the gifts God gave them.
    But I guess my observation is--and I will close, Mr. 
Chairman--but it seems like one of the best things we can do 
for our environment is make sure we are strong enough to stay a 
super power and not let some of these mean-spirited countries 
that hurt the environment take over from us. So that may need 
to be our number-one priority. Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you, Mr. Gohmert.
    You know, I would say--and if any of you disagree with me, 
I would certainly be interested to hear it--that throughout the 
course of history, the industrialization of this country, there 
have been abuses by industries of the environment and of 
species. But also, since the course of ESA has been enacted, 
there have been abuses from a well-intended law called the ESA, 
for purposes other than what it was intended to be used for.
    To me, I think it is only common sense that we try to work 
and try to strengthen areas. For example, we have worked over 
the last half a century to get businesses and industries that 
utilize resources, natural resources, to be better 
environmental stewards. I think everybody would agree with 
that. We have worked very hard.
    But we also need to work to make sure that the ESA, the 
Endangered Species Act, works to do what it was intended to do, 
which is recover species; not be used, not be abused, to 
prevent every occurrence, every utilization, every usage of a 
resource in this country. Because I don't think that is the 
intent of the law, and I think one is as bad as the other. 
Abuse of the environment is as bad as abusing environmental 
laws.
    Does anybody disagree with that?
    [No response.]
    Mr. Gibbons. I wouldn't think so. You know, I guess I have 
a question as a scientist. And maybe I should go over to 
Professor Boorse. The Permian die-off--you are familiar with 
that, as a biologist--what percentage of species in this world 
were extinguished in the Permian die-off?
    Ms. Boorse. I don't know the exact number, but it was very 
high.
    Mr. Gibbons. Ninety-five percent, somewhere in that 
neighborhood. So extinction is part of mother nature--God's 
plan for the world, and species as well. And we would have a 
very difficult time in this country to preserve habitat if the 
dinosaurs were still here competing with human beings; wouldn't 
we?
    Ms. Boorse. Could I just reiterate that while extinction is 
part of God's plan, it is His prerogative, in my opinion. And 
much as our own mortality is in God's hands, but we do not 
lightly take lives of other people.
    Mr. Gibbons. Well, and I would also say in the same realm, 
the same philosophy, that extinction of human beings, this 
should be looked at. I mean, the development and the quality of 
life of humans on this Earth is as important as the development 
and quality of life of species, as you have said. So if we do 
nothing, if we sit back and let mother nature take care of 
everything, then the human species will fail.
    Ms. Boorse. In reality, humans will fail if we abuse the 
environmental systems that we depend on.
    Mr. Gibbons. Goes back to what I said in the beginning; 
doesn't it? That we have to have a working relationship between 
both the environment and laws that are used to protect those 
environments.
    You know, and I guess maybe Mr. Mathis, let's talk to you, 
because you are an individual that has some concept and ideas 
of how this ESA--what would be the goals that you would 
envision that the Endangered Species Act should have for both 
protecting species and allowing for the development of economic 
resources that help with our economy, help with the quality of 
life for human beings on this Earth?
    What are the broad goals? I know you have said in your 
testimony you didn't want to get into the micro details. Just 
give me some broad goals.
    Mr. Mathis. Well, the broad goals, the number-one goal 
would be to return the ESA to the law that it was intended to 
be; which is ``Let's recover species.'' What we have learned 
over the last 30 years is that setting aside these large tracts 
of land for critical habitat has not been effective. You know, 
when you look at 1,260-some species and you can say, ``Well, we 
have only recovered fewer than a dozen,'' clearly, that is not 
working.
    So we need to remove things such as the thing that I have 
harped on in this testimony, which is the species crossing 
state lines. That doesn't make any sense. Let's look at the 
species itself; not look at it regionally. And let's use hard 
science. Let's make sure that the species is indeed unique in 
the environment.
    And then we have to start setting some priorities. I mean, 
if it turns out that you have this particular species of fly, 
and that is just genetically different than another 50 species 
of flies in just some little way, are we going to restrict the 
production of energy that runs absolutely everything in our 
lives, to protect this one fly that is just genetically 
partially dissimilar to another one? I think that we are way 
out of whack here. We have to set good priorities.
    And the last thing I would mention is really good science. 
What we have had is a situation where a whole bunch of species 
have been taken off of the list, they have been de-listed, 
because the original counts were so bad. Originally, ``Oh, we 
have only got 250 of this creature.'' Well, then we find out we 
have a million. And so we have to go in and have really good 
scientific, verifiable data.
    And you should not restrict development, you should not 
restrict grazing and energy production, you should not restrict 
these things, until you have good, quantifiable, peer-reviewed 
data that says, ``This is a real problem and we really have to 
do something to protect this species.''
    And one last thing is a lot of species can benefit from 
doing things proactively; not just setting aside a piece of 
land and saying, ``OK, we just hope that they somehow survive. 
We are not going to touch it.'' You know, let's get involved, 
like we used to do 50 years ago, to bring back species like the 
wood duck; where people erected nests, artificial nests, for 
the wood duck, to bring it back. It was almost extinct, and now 
they are everywhere. It is the most prolific duck species that 
we have.
    We can help these species. Just setting aside land, saying, 
``This is critical habitat, let's not touch it,'' that is not 
going to work. And we have to have good science. And when you 
have a seven-year drought in the State of New Mexico and that 
has caused the number of prairie chickens to decrease, we are 
not going to let oil and natural gas production on this land; 
when we can't prove that it is going to harm them at all; when 
in fact it has been a seven-year drought and lower grasses and 
more predation and even just these animals dying of thirst?
    I mean, you have to get to the cause. Is this mining, is 
this ranching, is this energy development actually harming the 
species? Let's get peer-reviewed scientific data to do that. 
Then we can go from there.
    Mr. Gibbons. Thank you. And I think the last point you made 
was exactly the question I had asked Ms. Conner, about her 
efforts to monitor the falcon in her area versus the mining 
activities. Was it the cause; is it a cause? And it seems not 
to be a cause.
    I am curious about the fly analogy, because I am looking 
today as we consider mosquito abatement programs, where we 
spray vast areas for mosquitos. At some point, we may make the 
mosquito an endangered species, and then we will all be in 
trouble when it gets down to that point.
    Does anybody have any additional questions they want to 
ask? Mrs. Drake? Mr. Pearce?
    Mr. Pearce. I will pass, thank you, Mr. Chairman.
    Mr. Gibbons. Well, let me thank our witnesses, then, 
because you have spent time here today to endure the questions 
and the ideas of this Committee. And I want to submit that it 
is the responsibility of this body to conduct oversight on the 
issues, the laws, and the regulations that affect the energy 
and mineral production in this country, which are the 
cornerstone of the economy, the cornerstone--if not the 
keystone--to the quality of life we have in America.
    And we have heard today from our witnesses there are real-
world impacts. We have talked about the grazing industry, the 
mining industry, the oil and gas industry. And we have talked 
about the environment as well on this. And these environmental 
laws and regulations, of course, play a unique part in our 
world, as they should. But they also can be abused and play a 
detrimental role in the development of these areas for 
continuation of the American economy.
    And I appreciate the comments of my friend from Arizona, 
when he came here today and referred to the Wildlands Project 
as a single group, a ``bogeyman.'' He may be unaware that this 
group is actually a coalition. It is made up of numerous 
organizations which, if those of us on the Committee want to 
look at the background information, we will list those 
organizations and many more that belong to this.
    But I want to clarify that, contrary to the statements that 
he made earlier, this hearing is an examination not about the 
men and the women who are part of that organization; but for 
the record, the Wildlands Project organization was invited to 
testify today. They were not excluded. They were not 
intentionally denied participation in this Committee. They were 
invited, at the minority's request. And their scheduling 
prevented them, particularly that organization or that 
coalition, from attending. And I believe that, of course, Noah 
Alliance was here to testify as an alternative to their 
participation. And we welcome the alliance from being here to 
testify, as well.
    I do want to submit for the record two recent news articles 
highlighting two separate examples of organizations which 
support the concepts of the Wildlands Project, outlined, as we 
said, throughout their goals and their ideas. And these two 
articles for the record are the Billings Gazette out of 
Billings, Montana--let me find the date. OK, it was a June 
15th, 2005 article, ``BLM Fidelity Appeal Federal Court 
Ruling,'' by Claire Johnson, the staff writer for the Gazette. 
And I would submit that for the record.
    I also want to submit an AP article dated February 17th, 
2005, ``Group Seeks To Shield Polar Bear,'' by Dan Joling. Like 
I said, it was an AP article with regard to the Center for 
Biological Diversity, and the effect on the polar bear and the 
goals of that organization.
    So without objection, those two articles will be entered 
into the record, as well.
    [The articles follow:]
billingsgazette.com

               BLM, Fidelity appeal federal court ruling

By CLAIR JOHNSON of The Gazette Staff

    The U.S. Bureau of Land Management and an energy development 
company have filed notices to appeal a federal court decision that 
ruled invalid a statewide environmental analysis on coalbed methane 
development.
    BLM said it will ask the 9th U.S. Circuit Court of Appeals whether 
the district court erred in ruling that the agency violated the 
National Environmental Policy Act by not considering phased development 
as part of its statewide analysis, court records said. The 2003 study 
was conducted jointly with the State of Montana.
Planning appeal
    BLM also said it will appeal the district court's action granting 
partial summary judgment to the Northern Cheyenne Indian Tribe and to 
the Northern Plains Resource Council, which sued the BLM, and ordering 
BLM to prepare a supplemental environmental study.
    BLM spokesman Don Smurthwaite said Tuesday that the Department of 
Justice filed the notice to protect the government's options for a 
formal appeal later.
    An appeals notice by Fidelity Exploration and Production Co., a 
subsidiary of MDU Resources Inc., deals with a portion of a district 
court injunction issued in the case. Fidelity, which has between 450 
and 500 producing coalbed methane wells near Decker in the southeastern 
Montana, intervened in the lawsuit.
    NPRC, a conservation and agricultural group, and the tribe sued 
BLM, alleging that it violated federal law by not adequately studying 
the potential effects of coalbed methane.
    U.S. Magistrate Richard Anderson ruled in February that the BLM 
violated the law because the study did not consider an alternative in 
which development would be done in phases, such as limiting the number 
of rigs operating in an area or developing one area at a time.
    The judge invalidated the study and ordered BLM to conduct a 
supplemental review on phased development.
Ruling for BLM
    The judge also ruled for BLM on other issues. Anderson said he 
could not find that BLM's treatment of water re-injection or injection 
alternatives for water produced by drilling for the gas was 
unreasonable. BLM also did not violate the law by conducting two 
studies--one in Wyoming and one in Montana--instead of one for the 
entire Powder River Basin.
    And as a whole, the statewide study ``adequately considered the 
impacts'' of coalbed methane development in the basin, Anderson said in 
an advisory opinion.
    As part of the case, Anderson issued an injunction in April in 
which he adopted a BLM proposal to allow some development to proceed 
while it conducts additional study of phased development. The proposal 
allowed 500 new wells a year in about 289,000 acres of the 4.1 million-
acre development area, court records said.
    NPRC and the tribe filed an emergency appeal of the injunction with 
the 9th Circuit. The appellate court granted the request, effectively 
preventing BLM from approving coalbed methane projects in Montana and 
preventing Fidelity from drilling additional wells. The case is set to 
be heard by the appellate court in September.
    Fidelity raised two issues in its appeals notice. One is whether 
the district court erred in requiring BLM to restrict water management 
plans for federal wells to prohibit surface discharge of untreated 
ground water produced by drilling. The second challenges the court's 
requirement that BLM not approve drilling permits unless the operator 
has certified that water well mitigation agreements are in place for 
all wells and springs.
    Bruce Williams, Fidelity's vice president of operations, said 
Tuesday that state law requires the company to have offered water well 
agreements to any party within a mile of any well. The company is 
contesting whether it actually has to have the agreement, he said.
    Williams also said Fidelity filed an emergency request this week 
with the appellate court seeking reconsideration of its ruling to halt 
coalbed methane development pending review.
    The company is seeking clarification of whether the injunction 
applies to all coalbed methane wells or only to wells drilled on 
federal leases and for reconsideration of its injunction, Williams 
said. Fidelity is asking that the entire panel of judges hear its 
request.
                                 ______
                                 

                    Group seeks to shield polar bear

The Associated Press
February 17, 2005 10:58 a.m.
By Dan Joling

[Picture not shown] A female polar bear and her cubs rest on the ice in 
the Arctic National Wildlife Refuge in Alaska. The Center for 
Biological Diversity, a * conservation group, filed a formal petition 
yesterday, seeking to list the polar bear as a threatened species under 
the federal Endangered Species Act.
    ANCHORAGE--A conservation group filed a formal petition yesterday 
seeking to list the polar bear as a threatened species under the 
federal Endangered Species Act.
    Polar bears could become extinct by the end of the century because 
global warming is melting away their sea-ice habitat, contends Kassie 
Siegel, lead author of the 154-page petition submitted by the Center 
for Biological Diversity.
    She contends the United States must quickly reduce greenhouse-gas 
emissions to a fraction of current levels or polar bears will become 
extinct.
    ``Greenhouse-gas emissions can be drastically cut with sound policy 
changes that will not decrease quality of life, such as by increasing 
fuel-efficiency standards for automobiles,'' she said. ``But we must 
act now.''
    In Alaska, there are two populations of polar bears, said Rosa 
Meehan, chief of the marine-mammal management program for the U.S. Fish 
and Wildlife Service, the agency that must respond to the petition.
    The Beaufort Sea stock off Alaska's northern coast is estimated at 
2,000 animals.
    ``That stock is stable or perhaps increasing,'' she said, based on 
long-term mark and recapture studies.
    Less is known about the Bering-Chukchi stock off Alaska's northwest 
coast. The population is shared with Russia. A 1998 estimate put their 
numbers at 2,000 to 5,000.
    ``We don't know the status of that stock,'' Meehan said. ``It's in 
a very remote place, so it's difficult to count.''
    The two stocks are adjacent, and biologists surmise that--with sea-
ice conditions that are similar--the Bering-Chukchi stock is in the 
same condition as the Beaufort stock.
    ``We don't know that,'' Meehan said. ``It's just a guess.''
    The Marine Mammal Protection Act provides for unlimited harvest by 
subsistence hunters. Killing them in Russia is illegal, Meehan said, 
but some are killed, and the amount is unknown.
    A treaty to manage the bears jointly with Russia was signed in 
October 2000 and has passed the U.S. Senate.
    ``We're waiting for implementation legislation to get that up and 
running,'' Meehan said.
    Polar bears are the largest of all bear species. They live only in 
the Arctic and are found only in areas where sea ice occurs for a 
significant portion of the year.
    According to the Fish and Wildlife Service, there are 19 recognized 
populations of polar bears within the jurisdiction of five countries. 
Besides Alaska, they are in Canada, Norway, Greenland and Russia.
    Polar bears use sea ice for feeding, mating and maternity denning, 
Siegel said. They feed primarily on ringed seals.
    The Fish and Wildlife Service estimates there are 22,000 to 25,000 
bears worldwide.
    Siegel said seasonal sea ice is breaking up earlier each spring and 
forming later in the autumn. This means polar bears have less time to 
hunt ringed seals and must endure longer periods of fasting on land, 
she said.
    The petition cites global warming as the primary threat to polar 
bears but also lists Arctic oil and gas development, high levels of 
contaminants such as PCBs in polar-bear tissues and overrenting of some 
populations in Canada, Greenland and Russia.
    Listing under the Endangered Species Act would provide broad 
protection to polar bears, including a requirement that federal 
agencies ensure that government actions not ``jeopardize the continued 
existence'' of polar bears or adversely modify their critical habitat.
    The petition sets off a 90-day review by the Fish and Wildlife 
Service and an evaluation of whether further study is warranted, Meehan 
said.
    If the agency decides the petition has merit, biologists nine 
months later would present a 12-month finding and decide whether a 
listing was warranted.
    Public review, evaluation of public comment and a final decision 
would take at least one more year, Meehan said.
                                 ______
                                 
    Mr. Gibbons. With that, if there are no other questions 
from the panel, and no objection, I will adjourn the hearing 
right now.
    [Whereupon, at 11:49 a.m., the Subcommittee was adjourned.]

    [A statement submitted for the record by The Honorable Nick 
J. Rahall, II, follows:]

     Statement of The Honorable Nick J. Rahall, Ranking Democrat, 
                         Committee on Resources

    This hearing is another in a series of hearings the Committee is 
having on the impact of the Endangered Species Act on development. 
Today we will look at the law's effect on the energy and mineral 
industries.
    One of the witnesses testifying today is Dr. Dorothy Boorse of the 
Noah Alliance. She is a professor of biology. She also is an 
evangelical Christian.
    She will explain why corridors and habitat are important for 
species conservation from both of those perspectives.
    Of particular interest to me is her perspective on our 
responsibility to care for God's creatures.
    Dr. Boorse and I share the principle that humans should tread 
extremely cautiously when the fate of threatened or endangered species 
lies in our hands.
    Congress will likely debate provisions to amend the Endangered 
Species Act in the near future, and we must not take lightly our 
responsibility to care for God's handiwork. Any efforts to amend the 
law should be undertaken with great care and reverence.
    Her message today, is therefore extremely important. I encourage 
everyone to listen to Dr. Boorse. And I thank her and commend her for 
coming to Washington, D.C., to testify on such short notice.
                                 ______
                                 
    [A statement submitted for the record by Kim Vacariu, 
Southwest Director, Wildlands Project, follows:]

    Statement of Kim Vacariu, Southwest Director, Wildlands Project

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to provide written comments. The 
Wildlands Project has a small staff, and due to previous commitments, 
we are not able to be present at the hearing. We trust this statement 
will answer your questions about the Wildlands Project, our views on 
the Endangered Species Act, and related matters.
The Wildlands Project: Mission and Goals
    The Wildlands Project is an organization of scientists and citizens 
deeply concerned about the loss of species and the degradation of 
ecosystems. These losses not only imperil our natural heritage, but 
also threaten the long term health of our society and economy. The 
Wildlands Project is dedicated to bringing the best science to bear on 
these problems and using that science as a foundation for collaborative 
solutions that restore and protect our nation's biological health. 
Through the science of conservation biology and dedication to the 
Wildlands Project's mission--to protect and restore the natural 
heritage of North America through the establishment of a connected 
system of wildlands--we are demonstrating practical and achievable 
opportunities to bring a natural, healthy balance back to our faltering 
ecosystems. We believe that healthy environments mean healthy futures 
for people, wildlife, and the places they call home.
The Wildlands Project's Collaborative Approach to Conservation
    The Wildlands Project's accomplishments are globally recognized for 
their scientific credibility, inclusiveness, and results-based 
orientation. The vehicle for achieving our conservation goals of 
protecting and restoring native species and ecosystem health is a 
series of ``Wildlands Networks'' that connect existing and proposed 
protected lands with one another via wildlife corridors. The elements 
that comprise Wildlands Network conservation plans--mapping of 
protected areas and landscape connections, native species analysis, and 
proposals for management of lands and waters--is based on rigorous, 
peer-reviewed science.
    Our credibility as conservation plan ``implementers'' is based upon 
the Wildlands Project's ability to build bridges between various 
stakeholders. Because large-landscape-scale Wildlands Network planning 
encompasses both public and private lands, managed by a wide range of 
local, state, Native American, and federal governments, and private 
owners, the Wildlands Project views the collaborative approach to 
conservation as essential.
    Examples of our collaborative efforts include:
    <bullet>  Workshops bringing private property owners in 
conservation planning areas together with state and federal agencies, 
and private organizations that offer advice and financial incentives 
for landowners to conserve the ecological values of their properties. 
These opportunities assist landowners in maintaining traditional 
operations and ownership while providing enhanced habitat for wildlife.
    <bullet>  The Wildlands Project-sponsored Border Ecological 
Symposium held this year in Tucson focused on the impact of border 
security infrastructure and activities on cross-border wildlife 
movement. The symposium was attended by representatives of the U.S. 
Border Patrol, U.S. Fish and Wildlife Service, Arizona Game and Fish 
Department, U.S. Forest Service, Bureau of Land Management, University 
of Arizona scientists, conservation organizations, and elected 
officials, including staff from the offices of U.S. Representative Raul 
Grijalva, U.S. Senator John McCain, and U.S. Senator Jon Kyle. The 
symposium has generated ongoing dialogue among these parties, 
conservation organizations (including the Wildlands Project), and the 
Department of Homeland Security.
    <bullet>  Support for and participation in the Arizona Wildlife 
Linkage Working Group, a collaboration among Arizona Department of 
Transportation, Arizona Game and Fish Department, Federal Highway 
Administration, U.S. Forest Service, U.S. Fish and Wildlife Service, 
and Bureau of Land Management to design a state-wide wildlife linkage 
map to be used in planning future wildlife highway crossing structures.
    Collaboration among this wide range of stakeholders generates 
effective and achievable solutions to conservation challenges--
solutions in which public and private decision makers can have a high 
degree of confidence.
    Achieving the goals set out in Wildlands Network conservation plans 
will require many decades and the efforts of ensuing generations of 
Americans. We see our task as beginning the process now, before more 
natural diversity is lost. No American wants to tell the next 
generation that it will never see wild salmon or grizzlies in their 
natural homes because we failed to care about our natural heritage.
    There are short-term benefits to Wildlands conservation planning as 
well, including the enormous contribution made to local economies by 
wildlife- and nature-related amenities, and the prevention of a further 
decline in species resulting in listings under the Endangered Species 
Act. The Wildlands Project-inspired collaborations now underway are key 
to averting the habitat destruction and fragmentation that underlie 
such listings.
The Wildlands Project and the Endangered Species Act
    The Endangered Species Act represents the best of America. It is a 
strong statement of our nation's values. We are a people who treasure 
nature. Many Americans come to this value based on religious belief. 
Protecting God's creation is an important part of their faith. Other 
Americans see our wildlands as the theater of evolution, home to the 
processes that ultimately sustain all human societies both materially 
and spiritually. For most Americans, it is both.
    The Endangered Species Act plays an integral role in protecting 
natural diversity, and it has been extremely effective at doing so. The 
world's most respected scientists tell us that we are in the midst of a 
great, human caused extinction episode rivaling several pre-historic 
extinctions caused by natural events. We are losing species at more 
than 1000 times the historic background rate. As the eminent biologist, 
Michael Soule, said, it is ``not just about the death of species, but 
about the death of birth.'' The Endangered Species Act is the miner's 
canary. It sounds the alarm when harm threatens. It allows us to 
prevent extinction. Because of the Endangered Species Act, we still 
have bald eagles--the symbol of our nation--plus wolves, grizzlies, 
California condors, salmon, and hundreds of other magnificent native 
species.
    The Endangered Species Act is a safety net for wildlife, plants, 
and fish that are on the brink of extinction. We owe it to our children 
and grandchildren to be good stewards of our environment and leave 
behind undiminished the great natural legacy that we inherited from 
previous generations. We all know that one of the most effective ways 
to protect that natural legacy is to protect the places where 
vulnerable species live.
    According to recent polling, 86% of Americans believe in a strong 
Endangered Species Act. It is one of the most popular laws in our 
nation's history. The Wildlands Project shares this view. We are 
working with communities to design habitat conservation approaches that 
will help protect species where they live before they become 
endangered. Defensive tactics to save species are often required, but 
we must do more to get ahead of the curve. Therefore, the Wildlands 
Project advocates for a stronger Endangered Species Act that has as its 
centerpiece scientifically credible requirements for critical habitat 
protection because, in order to protect species, we must protect their 
homes.
    The Endangered Species Act is a powerful tool to protect our 
natural heritage--a heritage Americans clearly want protected. Although 
the Wildlands Project rarely litigates and does not lobby, we see the 
Act as essential to conservation and maintaining the quality of life in 
America.
The Wildlands Project and Energy Development
    Wildlands Project conservation planning is aimed at achieving 
conservation goals. Our plans provide for both strictly protected areas 
and for ``compatible use areas'' where some types of resource 
extraction can occur based on their impacts to species and ecosystem 
processes. The debate over potential conflicts between protecting 
ecologically important lands and developing them for energy and mineral 
resources has a long history.
    We find highly instructive the thoughts of a previous, 
conservation-minded Republican President, Teddy Roosevelt:
        ``Optimism is a good characteristic, but if carried to excess, 
        it becomes foolishness. We are prone to speak of the resources 
        of this country as inexhaustible; this is not so.''
(Annual message to Congress of 1907)
        ``Defenders of the short-sighted men who in their greed and 
        selfishness will, if permitted, rob our country of half its 
        charm by their reckless extermination of all useful and 
        beautiful wild things sometimes seek to champion them by saying 
        the 'the game belongs to the people.' So it does; and not 
        merely to the people now alive, but to the unborn people. The 
        'greatest good for the greatest number' applies to the number 
        within the womb of time, compared to which those now alive form 
        but an insignificant fraction. Our duty to the whole, including 
        the unborn generations, bids us restrain an unprincipled 
        present-day minority from wasting the heritage of these unborn 
        generations. The movement for the conservation of wild life and 
        the larger movement for the conservation of all our natural 
        resources are essentially democratic in spirit, purpose, and 
        method.''
(A Book-Lover's Holidays in the Open, 1916)
The Wildlands Project and Our Detractors
    The success of the Wildlands Project in promoting continental 
conservation through the design and implementation of Wildlands Network 
conservation plans has, as have all innovative new approaches to major 
societal challenges, garnered detractors. In the case of the Wildlands 
Project, criticism aimed at us has often been unusually overstated. 
Maps published and copyrighted by the Wildlands Project have been re-
drawn and distributed with erroneous, misleading content. Websites have 
been created that not only misrepresent our goals and products, but 
have actually claimed to be our own official website. Claims have even 
been made--completely without basis in fact--that we are 
representatives of the United Nations, working to impose the Convention 
on Biodiversity. The Wildlands Project's materials, maps, and 
conservation work can be found at our website, 
www.wildlandsproject.org.
    Thank you for allowing us to provide these comments to the 
subcommittee.

                                 <all>

</pre></body></html>
